<html>
<title> - THE BENEFITS OF PROMOTING SOIL HEALTH IN AGRICULTURE AND RURAL AMERICA</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 THE BENEFITS OF PROMOTING SOIL HEALTH IN AGRICULTURE AND RURAL AMERICA

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON CONSERVATION, ENERGY,
                              AND FORESTRY

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 18, 2014

                               __________

                           Serial No. 113-23


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov



                                   ______

                         U.S. GOVERNMENT PRINTING OFFICE 

89-881 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



                        COMMITTEE ON AGRICULTURE

                   FRANK D. LUCAS, Oklahoma, Chairman

BOB GOODLATTE, Virginia,             COLLIN C. PETERSON, Minnesota, 
    Vice Chairman                    Ranking Minority Member
STEVE KING, Iowa                     MIKE McINTYRE, North Carolina
RANDY NEUGEBAUER, Texas              DAVID SCOTT, Georgia
MIKE ROGERS, Alabama                 JIM COSTA, California
K. MICHAEL CONAWAY, Texas            TIMOTHY J. WALZ, Minnesota
GLENN THOMPSON, Pennsylvania         KURT SCHRADER, Oregon
BOB GIBBS, Ohio                      MARCIA L. FUDGE, Ohio
AUSTIN SCOTT, Georgia                JAMES P. McGOVERN, Massachusetts
SCOTT R. TIPTON, Colorado            SUZAN K. DelBENE, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  GLORIA NEGRETE McLEOD, California
SCOTT DesJARLAIS, Tennessee          FILEMON VELA, Texas
CHRISTOPHER P. GIBSON, New York      MICHELLE LUJAN GRISHAM, New Mexico
VICKY HARTZLER, Missouri             ANN M. KUSTER, New Hampshire
REID J. RIBBLE, Wisconsin            RICHARD M. NOLAN, Minnesota
KRISTI L. NOEM, South Dakota         PETE P. GALLEGO, Texas
DAN BENISHEK, Michigan               WILLIAM L. ENYART, Illinois
JEFF DENHAM, California              JUAN VARGAS, California
STEPHEN LEE FINCHER, Tennessee       CHERI BUSTOS, Illinois
DOUG LaMALFA, California             SEAN PATRICK MALONEY, New York
RICHARD HUDSON, North Carolina       JOE COURTNEY, Connecticut
RODNEY DAVIS, Illinois               JOHN GARAMENDI, California
CHRIS COLLINS, New York
TED S. YOHO, Florida
VANCE M. McALLISTER, Louisiana
                                    ________
                                 

                      Nicole Scott, Staff Director

                     Kevin J. Kramp, Chief Counsel

                 Tamara Hinton, Communications Director

                Robert L. Larew, Minority Staff Director

                                 ______

           Subcommittee on Conservation, Energy, and Forestry

                 GLENN THOMPSON, Pennsylvania, Chairman

MIKE ROGERS, Alabama                 TIMOTHY J. WALZ, Minnesota, 
BOB GIBBS, Ohio                      Ranking Minority Member
SCOTT R. TIPTON, Colorado            GLORIA NEGRETE McLEOD, California
ERIC A. ``RICK'' CRAWFORD, Arkansas  ANN M. KUSTER, New Hampshire
REID J. RIBBLE, Wisconsin            RICHARD M. NOLAN, Minnesota
KRISTI L. NOEM, South Dakota         MIKE McINTYRE, North Carolina
DAN BENISHEK, Michigan               KURT SCHRADER, Oregon
VANCE M. McALLISTER, Louisiana       SUZAN K. DelBENE, Washington


                                  (ii)
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Lucas, Hon. Frank D., a Representative in Congress from Oklahoma, 
  opening statement..............................................     4
Thompson, Hon. Glenn, a Representative in Congress from 
  Pennsylvania, opening statement................................     1
    Prepared statement...........................................     2
Walz, Hon. Timothy J., a Representative in Congress from 
  Minnesota, opening statement...................................     3

                               Witnesses

Weller, Jason, Chief, Natural Resources Conservation Service, 
  U.S. Department of Agriculture, Washington, D.C................     5
    Prepared statement...........................................    13
Larson, John, Chief Executive Officer, National Association of 
  Conservation Districts, Washington, D.C........................    33
    Prepared statement...........................................    35
Phillips, Shanon, Director, Water Quality Division, Oklahoma 
  Conservation Commission, Oklahoma City, OK.....................    38
    Prepared statement...........................................    39
Harbach, James, Farm Manager, Schrack Farms, Loganton, PA........    44
    Prepared statement...........................................    45
Sackett, Jill L., Extension Educator, Agriculture Production 
  Systems, University of Minnesota Extension Regional Office, 
  Mankato, MN....................................................    50
    Prepared statement...........................................    51

                           Submitted Material

Jahn, Chris, President, The Fertilizer Institute, submitted 
  letter.........................................................    63
Sands, Jeff M., Director of Public Policy, Agricultural Retailers 
  Association, submitted letter..................................    67

 
 THE BENEFITS OF PROMOTING SOIL HEALTH IN AGRICULTURE AND RURAL AMERICA

                              ----------                              


                      THURSDAY, SEPTEMBER 18, 2014

                  House of Representatives,
        Subcommittee on Conservation, Energy, and Forestry,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 11:30 a.m., in 
Room 1300 of the Longsworth House Office Building, Hon. Glenn 
Thompson [Chairman of the Subcommittee] presiding.
    Members present: Representatives Thompson, Gibbs, Crawford, 
Lucas (ex officio), Walz, Nolan, DelBene, and Peterson (ex 
officio).
    Staff present: Brent Blevins, Josh Maxwell, Nicole Scott, 
Tamara Hinton, John Konya, Liz Friedlander, Robert L. Larew, 
Matthew McKenzie, Mike Stranz, Evan Jurkovich, and Riley 
Pagett.

 OPENING STATEMENT OF HON. GLENN THOMPSON, A REPRESENTATIVE IN 
                   CONGRESS FROM PENNSYLVANIA

    The Chairman. This hearing of the Subcommittee on 
Conservation, Energy, and Forestry, entitled, The Benefits of 
Promoting Soil Health in Agriculture and Rural America, will 
come to order. I would like to welcome everyone today. Good 
morning. I really do want to welcome everyone to this hearing 
of the Conservation, Energy, and Forestry Subcommittee on the 
topic of soil health, or healthy soils, which is critically 
important to American agriculture and strong farming 
communities.
    Congress has long recognized the importance of promoting 
soil health across the country, starting with the establishment 
of the Soil Conservation Service in 1935 as a permanent part of 
USDA. The need for this agency came in response to a persistent 
problem of soil erosion across the country, particularly in the 
Dust Bowl region.
    Now, the Soil Conservation Service, which eventually became 
the Natural Resources Conservation Service, that we know today, 
plays an important role in preserving soil health across the 
country by providing producers with voluntary assistance in 
monitoring and assessing soil conditions on their land. As our 
predecessors did for us in the past, we owe it to future 
generations to do what we can today, and understand and 
recognize the importance of healthy soil.
    The Earth's population is projected to grow to roughly nine 
billion people by the year 2050. Given the growing demands on 
farmland everywhere, we must invest in the necessary resources, 
and best practices, to be certain that producers have the 
capacity to meet this growing need. To that end, I am 
particularly proud of this Committee's work on conservation 
programs during the deliberation of the newly enacted farm 
bill. We came together in a bipartisan fashion to reauthorize 
and strengthen our title II programs, even in the face of 
significant budget cuts.
    It is heartening to see how farmers, ranchers, and 
foresters across the country have made promoting the health and 
sustainability of soil a fundamental priority. For example, I 
see this all the time across the 5th District of Pennsylvania, 
where farmers are engaging in innovative practices, including 
no-till practices, cover cropping, and adhering to other best 
practices in order to preserve the nutrients in the soil. 
Additionally, it is important for us to remember that soil 
health is closely linked with water quality.
    In addition to the great work being done at the state and 
county levels, I am proud that so many of the farmers and 
foresters in Pennsylvania have taken voluntary steps to promote 
soil health in order to do their part to assist in the recovery 
of the Chesapeake Bay. Our farmers and ranchers are the best 
stewards of the land. They continually adapt to protect our 
natural resources, despite the overly burdensome regulatory 
environment imposed upon them. And whether it is protecting our 
drinkable water supply, keeping nutrients for the next crop 
year, or maintaining a supply of forage for livestock, there is 
no shortage of reasons why we must continue to innovate when it 
comes to promoting soil health.
    We have a great set of witnesses to testify today, and I 
want to thank them for sharing their expertise with the 
Subcommittee. It is good to see Chief Weller before us today. 
He has the task of implementing all the work that we did in the 
farm bill, and I look forward to hearing the agency's 
perspective on this topic.
    I am also pleased to welcome a constituent of mine, a 
friend, Mr. Jim Harbach. I have said--long said that farmers 
are the original environmentalists, and that belief has been 
re-affirmed after having the opportunity to tour his farm, 
among so many others in the region. And I want to thank him for 
taking time to make the drive down from Clinton County this 
morning.
    [The prepared statement of Mr. Thompson follows:]

Prepared Statement of Hon. Glenn Thompson, a Representative in Congress 
                           from Pennsylvania
    Good morning. I want to welcome everyone to this hearing of the 
Conservation, Energy, and Forestry Subcommittee to review the benefits 
of promoting soil health in agriculture and rural America.
    Congress has long recognized the importance of promoting soil 
health across the country, starting with the establishment of the Soil 
Conservation Service in 1935 as a permanent part of USDA.
    The need for this agency came in response to a persistent problem 
of soil erosion across the country, particularly in the Dust Bowl 
region.
    The SCS eventually became the Natural Resources Conservation 
Service we know today, and plays an important role in preserving soil 
health across the country by providing producers with assistance in 
monitoring and assessing soil conditions on their land.
    As our predecessors did for us in the past, we owe it to future 
generations to do what we can today to understand and recognize the 
importance of healthy soil.
    The Earth's population is projected to grow to roughly nine billion 
people by the year 2050. Given the strains on farmland everywhere, we 
must invest the necessary resources to be certain that producers have 
the capacity to meet this growing need.
    To that end, I am particularly proud of this Committee's work on 
conservation programs during the deliberation of the farm bill.
    We came together in a bipartisan fashion to reauthorize and 
strengthen our title II programs, even in the face of significant 
budget cuts.
    It is heartening to see how farmers, ranchers, and foresters across 
the country have taken the lead on promoting the health and 
sustainability of soil.
    For example, I see this all the time across the 5th district of 
Pennsylvania, where farmers are engaging in no-till practices and 
adhering to other best management practices in order to preserve the 
nutrients in the soil.
    Additionally, it is important for us to remember that soil health 
is closely linked with water quality.
    I am proud that so many of the farmers and foresters in 
Pennsylvania have taken voluntary steps to promote soil health in order 
to do their part to assist in the recovery of the Chesapeake Bay.
    Our farmers and ranchers are the best stewards of the land and 
continually adapt to protect our natural resources despite the overly 
burdensome regulatory environment imposed on them.
    Whether it's protecting our drinkable water supply, keeping 
nutrients for the next crop year, or maintaining a supply of forage for 
livestock, there is no shortage of reasons why soil health is important 
to rural America.
    We have a great set of witnesses set to testify today, and I want 
to thank them for sharing their expertise with the Subcommittee.
    It's good to see Chief Weller before us today. He has the task of 
implementing all the good work we did in the farm bill. I look forward 
to hearing the agency's perspective on this topic.
    I'm also pleased to welcome a constituent of mine, Mr. Jim 
Harbarch.
    I've long said that farmers are the original environmentalists, and 
I believe that after having the opportunity to tour his farm.
    I want to thank him for taking time to make the drive down from 
Clinton County this morning.
    I now want to recognize the Ranking Member for his opening 
statement.

    The Chairman. And I want to now recognize my good friend 
and Ranking Member for his opening statement.

OPENING STATEMENT OF HON. TIMOTHY J. WALZ, A REPRESENTATIVE IN 
                    CONGRESS FROM MINNESOTA

    Mr. Walz. Well, thank you, Chairman Thompson, and thank you 
again for holding this bipartisan and important hearing. Chief 
Weller, thank you for being here. Thank you for the work you 
do. Also a thank you to the full Committee Chairman. Mr. Lucas 
is here. He is passionate about this subject, and has made that 
known for a very long time, since I have known him, and so I 
thank you for continuing to make the importance of soil health 
a priority.
    Members have expressed a deep interest in this. Whether it 
is flooding that happened early in the spring in my district, 
or wildfires, or other things that impact soils, Members want 
to know what the research is showing. They want to know what 
happened. And we know, and we have the data to prove it. For 
example, in 2012, average corn yield was 126.2 bushels where 
cover crops were employed, 115 bushels without it. So we know--
understand that it works. It is an economic issue. It impacts 
everything from water quality to the farmers' bottom lines, so 
we need to make sure that we get that right.
    One of the things I know that is somewhat of a challenge, 
and we see it happen when we have flooding incidents and 
things, is how do we employ cover crops and work through RMA, 
FSA, and some of those issues that may preclude it, where a 
farmer has to determine between crop insurance and cover crops 
when those issues come up? It is not because they don't want to 
get it right, and it is not because they don't understand the 
importance of it. We just have to make sure that, as we put 
regulations in place, they mesh with what are the best 
practices.
    I would also like to welcome and introduce one of my 
constituents, Ms. Jill Sackett, who is a University of 
Minnesota extension educator. With her passion, she will need 
to talk to the Chairman afterwards. You two could talk for 
hours on soil health and cover crops. But she comes to us from 
Mankato, Minnesota, in Blue Earth County, where the soil is 
literally so black it is blue, and some of the most productive 
farmland in the country. I welcome you, and, as an educator, I 
welcome you as the teacher's teacher.
    You are here today to explain to us, and help us make 
decisions based on science and best practices, to ensure, as 
the Chairman so clearly pointed out, that we can continue 
feeding the world, while continuing to figure out a way that we 
can feed an ever hungrier, ever expanding world with fewer 
producers on less landmass, so that land and that soil are 
becoming more important.
    So thank you all for being here today, thank you for this 
work, and with that, I yield back my time to the Chairman.
    The Chairman. Thank you, Ranking Member. Now it is a 
privilege and honor to recognize the Chairman of the full 
Agriculture Committee.

 OPENING STATEMENT OF HON. FRANK D. LUCAS, A REPRESENTATIVE IN 
                     CONGRESS FROM OKLAHOMA

    Mr. Lucas. Thank you, Mr. Chairman, and I appreciate the 
opportunity to offer a few thoughts. First and foremost, thank 
you to you and the Ranking Member, and all the Members of the 
Subcommittee. All the hearings that you have held, all the work 
that you did, laid the groundwork for an even stronger 
conservation title in this year's farm bill. Had you not gone 
through all those witnesses, handled all those questions, done 
your work to enable the full Committee to do its work, we 
wouldn't have the title and provisions that are indeed there, 
so I very much appreciate that.
    And I am particularly pleased, I will agree, that we have 
this particular subject as something to look at today, the 
soil. Any farmer will tell you that, right along with their 
children and their grandchildren, they have no greater asset 
than the soil on their farm. And that, like their children and 
grandchildren, it is a living entity too. It has to be 
addressed and nurtured, has to be taken care of, grown, and 
improved. So thank you in that regard.
    And, of course, to the Chief and to the Service, very--how 
can you describe the history of what was the Soil Conservation 
Service, the NRCS now? A group that, in many challenging times, 
dealing with many diverse issues in many diverse parts of the 
country, has consistently worked with farmers and ranchers to 
make sure that our most valuable resources are preserved. Soil, 
water, air quality, all of those sort of things. Just a huge 
success story.
    I look forward to the comments from the Chief about the 
issues that he is addressing these days, and how he intends to 
implement those provisions that affect soil health in the 
Agricultural Act of 2014, as well as the second panel of 
witnesses, who clearly are very knowledgeable people from 
diverse backgrounds across the country, with this common 
perspective of our soil. But ultimately, once again, gentlemen, 
ladies, all of you, thank you for a very productive session, 
and a very productive farm bill, and let us continue our work 
here today. I yield back, Mr. Chairman.
    The Chairman. Thank you, Mr. Chairman. Now it really is a 
privilege and honor to welcome our first witness to the table, 
Mr. Jason Weller, Chief of the Natural Resources Conservation 
Service with the United States Department of Agriculture. Chief 
Weller, please take as much time as you might consume, and 
please begin when you are ready.

           STATEMENT OF JASON WELLER, CHIEF, NATURAL
RESOURCES CONSERVATION SERVICE, U.S. DEPARTMENT OF AGRICULTURE, 
                        WASHINGTON, D.C.

    Mr. Weller. Well, thank you very much, Chairman Thompson, 
Ranking Member Walz, Chairman Lucas, and Members of the 
Committee. My name is Jason Weller, and I appreciate the 
flexibility and forbearance here of the Committee to allow me a 
little extra time here. I have the presentation down to about 
48 minutes. Hopefully that is okay.
    The Chairman. Is there a Motion for Reconsideration?
    Mr. Weller. I will try and keep it brief. But I thought it 
would be good just to start at the outset and provide a little 
bit--hopefully I exhibit some of the passion we have for this 
topic. I will have to say, in my view, our renewed focus, is a 
return to the past in some respects. Mr. Lucas referred to our 
almost 80 year history as an organization, coming back to our 
roots, literally, on soil. The palpable excitement and energy 
it is creating not only within NRCS, but also with our brothers 
and sisters in the Soil and Water Conservation districts across 
the United States, and with farmers and ranchers themselves. 
This approach to managing our soils as a living ecosystem, as 
well as the physical and chemical properties of the soil, is 
something that we are really excited about.
    But before I begin, also, I just want to be really clear at 
the outset too that this is not about any one agency. This is 
not about NRCS. Overall we play a small role in this movement. 
What this is is a broad coalition, a broad, exciting group of 
folks, from--beginning with farmers and ranchers themselves, to 
the land-grant universities, extension services, ag retailers, 
foundations, private individuals, nonprofit groups, you name 
it. There is a huge constellation of groups who are working on 
this topic of soil health. They are bringing tremendous 
innovation, new ideas, excitement, resources.
    And this is something where--and, as an example, where we 
are actually having to run to keep pace with producers. 
Producers have been at this for a long time, in many cases 
decades. They have been the true pioneers in these approaches 
for soil health. We are learning from them. And this is an 
example where we are having to run to keep pace with producers. 
It is very exciting to be part of this movement. So with that, 
let me begin here with the presentation.
    So first let me just begin with the overall definition of 
what is soil health? Soil health is the capacity of soil to 
function as a vital, living ecosystem that sustains plants, 
animals, and humans. So what we are doing when we focus on soil 
health is we are trying to protect that ecosystem, the soil 
ecosystem, to support the life within the ecosystem, as well as 
the other properties of the soils, ultimately to benefit life 
above the soil, the plants that grow the food and fiber we 
depend upon. And soil is really important because it provides 
some key functions that we rely on.
    So, for example, it regulates the flow of water. When it 
rains or snows, or when the irrigation water is applied, what 
happens to that water? Does it leave the fields in runoff? Does 
it infiltrate in with the soil structure? As it gets into the 
soil structure, do the soils help to buffer and filter that 
water? So it provides an important crucial component for 
helping to clean the waters. Soils also then help cycle the 
nutrients, nutrients that are applied to farm fields through 
fertilizers, manures, and other sources, as well as the 
nutrients that are available from the environment itself, 
decomposition of the plant matter, and actually deposition from 
the atmosphere itself.
    It provides structures, supplies a medium for plants to 
grow in, but also provides support for human structures. Some 
of the most critical information, when you are an engineer, you 
are designing a road, a highway, a railway, a runway, a 
building, a stadium, you worry about what you are building on. 
It is the soil structure itself we depend upon to help support 
human economic activity.
    And the fifth really critical component of soil is it 
sustains life. At the end of the day, all life on Earth depends 
upon soil, and the function soils provides to grow the feed--
the food, the fuel, the fiber we really need. It helps the 
plants transform the energy from the sun itself. It depends 
upon the soil medium for that conversion of the sun's energy 
into energy that we then can use as life.
    Talking about life--speaking about life, so, for many 
years, our organization, many in our culture, have been focused 
on the physical and chemical properties of soil. Some have 
never lost sight, as Mr. Lucas pointed out. Many farmers and 
ranchers know that the soil is alive. But we are increasingly 
becoming aware of what is actually happening in that ecosystem 
below the surface of the Earth, what is happening in the soils. 
And what we are learning is that the life in the soils is among 
the most verdant--abundant source of life--diversity of life on 
Earth.
    So in the soils, there are millions of species of 
microorganisms, and billions of organisms in the soil itself 
that are all interrelated in an ecosystem, a web. They 
interrelate with each other, they feed each other, they 
transfer nutrients and energy between themselves. Just--one 
fact, for example. Just in 1 teaspoon of soil, there are more 
microorganisms in that 1 teaspoon of soil than there are people 
on Earth. Billions of microorganisms in that soil.
    The bacteria that lived in the rhizosphere, around the root 
structure, that help feed nutrients into the plants, and in 
return the plants feed carbohydrates, literally the sugar, to 
those bacteria, you could fit 40 million of those bacterium on 
the head of a pin. An incredible array of life. That life 
includes bacteria, fungi, algae, arthropods and other insects, 
protozoa, larger vertebrate animals, and they all are there 
working together to bring energy, and life, and food throughout 
this whole structure. And, at the end, having a robust life 
force within the soil itself helps support the production of 
cropland whether it is for food, whether it is just for 
vegetation for wildlife.
    And the role of those life forms are really critical. They 
help shred--the surface of the Earth. They help shred the 
biomass that resides in the soils. They help decompose that 
biomass, turn it into humus. Turn it into the really rich 
organic structure of the soils themselves. They create micro-
pores and macro-pores for water to infiltrate into the soil 
structure. They create actual room for the microbes and little 
organisms to live. They help cycle nutrients out of the 
atmosphere, in the soil itself, and fertilizers that are 
applied to the soils. They help make the soil more efficient in 
the processing, the cycling of those nutrients. And, 
ultimately, they also help clean the water, as the water moves 
through the soil structure. So the organisms are crucial 
overall not just to help the soils, but, really, to the health 
and quality of our environment.
    Mr. Chairman, you referenced a challenge that we are 
looking at in the coming years. What this is is a chart from 
the United Nations estimating world population growth. And, as 
you talked about, within the next 40 years, we estimate there 
are going to be nine billion people, an additional two billion 
people on Earth. This is both an incredible challenge, but also 
an incredible opportunity for American agriculture.
    So, in order to feed these additional two billion people 
over the next 40 years--okay, one fact that is just 
continually--kind of blows me away is that we are going to have 
to grow as much food in the next 40 years as we have, as a 
world civilization, over the last 500 years. So if you think 
back to before Magellan was even thinking about the Earth being 
round, before he even circumnavigated the globe, you think 
about all lifetimes and the food that was grown over that time 
period, we are going to have to grow in half a lifetime the 
same amount of food to feed that surging world population, and 
we are having to do that on a smaller land base.
    Just here in the United States, in the last 30 years, 
upwards of 43 million acres of land have been converted from 
agricultural lands to non-ag lands, economically developed, 
which is part of economic development. That is great. But out 
of those 43 million acres, a land area the size of the State of 
Washington, 14 million acres are the prime soils, the most 
productive soils on Earth. That is land area the size of the 
State of West Virginia which has been paved over and converted 
to other uses.
    So we have a massive challenge to grow food, we have less 
land to do it on, how are we going to do it? And here is the 
opportunity. This is a call to action to help support farmers 
and ranchers to begin investments today in improving and 
protecting the vibrancy and the health of their soils so they 
can be sustainable and grow that food and fiber, not just 
maintain yield, but boost yield, for decades to come.
    So I talked a little bit about some of the benefits of soil 
health, touched upon this. Healthy soil helps improve the water 
infiltration. So, when it rains, the water actually doesn't run 
off the field, it gets into the soil itself. It improves the 
water holding capacity of the soil. So by increasing the 
organic matter and the porosity of the soil, you get more water 
in the root zone, where the crops can get at that water.
    It helps improve water quality, protects our streams and 
rivers, and also our aquifers. It increases the nutrient 
availability of fertilizers, and manure, and poultry litter, 
but also just the decomposing biomass. It helps cycle those 
nutrients, makes them available again for what we need those 
nutrients for, which is to grow food. It helps save energy. 
Producers can be more efficient with their use of their farm 
equipment, the irrigation pumps. It helps save wear and tear on 
their equipment, which is, at the end of the day, saving them 
money, putting more cash in their pockets. And it helps improve 
the health of the plants, the crops themselves. It makes those 
crops more drought resistant, also more tolerant of high water 
events. It helps--makes those fields and those crops more 
resistant to pests and disease. So all the way around we 
believe there are a tremendous number of benefits you can 
garner from healthy soils.
    We view soil as a living factory, and when that factory is 
optimized, when you have all those critters working together, 
helping to feed the--cycle of the nutrients, feed the crops, 
you can then optimize the yield coming off those crops, off the 
farm fields. As a producer put it, succinctly, and probably 
most articulately, anything can have quality, but only living 
things can have health. And that is what we are focused on, the 
health, and how do you nurture the health of the 
microorganisms, the ecosystem below the surface of the soil.
    We have four basic principles when we talk about soil 
health from a macro perspective. What are the four basic 
principles that, when we work with a farmer or rancher, that we 
can then help apply on the land? Number one is minimize 
disturbance. So there is the physical, the biological and 
chemical disturbance of the soil, so you can minimize the 
disturbance.
    Number two is you want to maximize the diversity of the 
plants living and having their roots in the soil. So, as we 
have learned from ecologists, ecosystems that are diverse in 
their populations are more resilient to stress, to drought, to 
pests, to disease. So the more diversity you have in your crops 
in the soil, the more diversity of the microorganism you are 
going to have below, in the surface of the soil itself.
    The third is you want to keep your soils covered for as 
much as possible to protect them from the erosive effects of 
wind and water. And also, fourth, you want to have living roots 
in the soil for as long as possible. So when, traditionally, 
folks would fallow their fields, if you can instead, have 
living roots there to capture the solar radiation, the energy 
from the sun to actually feed the organisms in the soil for as 
long as possible, again, you are maximizing the energy that is 
going to be stored in banking that soil, making it again 
available for crop production.
    So one of the key principle--one of key practices, 
Chairman, you have already referenced is no-till. This 
addresses two of those key principles, in terms of minimizing 
disturbance of the soil, but also maintaining a residue on the 
soil. So it is actually an interesting fact recently learned 
that today we estimate across the U.S. there are about 67 
million acres of cropland that is in continuous no-till. That 
is roughly 23 percent, 24 percent of the U.S. crop--overall 
crop size.
    In--just in terms of avoiding lost carbon to the 
atmosphere, so keeping the carbon in the soils, where it is 
helping protect the vibrance of the soils to grow crops, that 
is about 8.8 million metric tons of CO<INF>2</INF> equivalent 
emissions that are avoided, that we are actually keeping in the 
soils. That is equivalent to burning 990 million gallons of 
gas, or powering 1.9 million passenger vehicles per year that 
are now being kept in the soils to help protect crops, and help 
with the organic content--maintain the organic content in the 
soils. So we view no-till practices as one of the greatest 
approaches to improving the health of the soils.
    Here is a close-up of what a no-till operation looks like 
in the field. I know you are very familiar with this. Today's 
farming implements can penetrate through that plant residue, 
drill the seeds in to the soil structure. And that mulch you 
see there on the surface, then, it has a number of benefits. 
Number one, it protects those soils from the erosive power of 
wind, and from water. It helps shade out weeds, so you have 
less pressure from weeds coming in and crowding out the 
valuable cash crop. It keeps that soil cool.
    Actually, when you have bare soil, on the hot summer 
months, you can actually cook the microbes in the soil itself. 
You can actually kill the microbes. It also increases the 
drying out of the soils and the plants, creating plant stress. 
The mulch itself can actually serve, then, as the biomass, as 
the fungi, and the mites, and other critters decompose that 
biomass into organic matter. So that also serves as a feedstock 
to help boost the organic matter in your soils.
    And why does organic matter matter? So here is a chart that 
shows what happens when you increase the organic matter.
    So across the bottom there you see the percent of organic 
matter in your soils. And as you increase that organic matter 
over time, you can actually boost the water holding capacity of 
your soils. More organic matter means more water. You create a 
reservoir in your fields to hold water when it rains or snows, 
or when you irrigate. So a rough rule of thumb, for every one 
percent increase in organic matter, you increase the water 
holding capacity of an acre by 25,000 gallons of water. So soil 
health is a great way to help capture--when you irrigate, or 
when it rains, it helps create more drought resiliency for your 
crop fields.
    Here is a side by side comparison of two fields of 
different tillage practices. This comes from Brookings County, 
South Dakota. On the left you see a no-till operation. On the 
right you see a conventional till operation. This is--this 
photo, I understand, was taken a couple hours after 1" rain. So 
on the left you could see the water has infiltrated. There is 
no evidence of water on that field, and you see no evidence of 
soil transport, no movement of the soils. On the right you 
could still see--even several hours after, you still see 
ponding of water. You see it is slick. You see the actual--
there--in this photo you can eyeball, there is--literally tons 
of soil have moved in that field, in some cases probably off 
that field. That water isn't getting into the root zone. It is 
not being stored in that soil for future growing seasons in the 
warmer summer months. It has probably been moved off--down off 
the field, where that water, and the nutrients, and very 
expensive inputs the farmer has invested in are now lost.
    Another key practice that we use is cover crops. A lot of 
folks have been talking about cover crops. What you see here is 
a shot of a field of rye. In this case, it has actually been 
rolled down. It has been crimped, so the crop has been 
terminated. But instead of harvesting that biomass, what this 
farmer is doing is keeping that biomass in place to serve as a 
mulch. So cover crops serve, again, the core principles. In 
this case, you are having--you are maximizing--you are leaving 
the roots. You are bringing root diversity to the soil, and you 
are helping, again, to keep that soil covered. So when you have 
the shot of that rye grass that has been rolled down, it again, 
serves as that mulch to moderate temperatures, protect the 
soils, serve as the feedstock for organic matter. Cover crops 
are a really valuable tool.
    So we are trying to get to what happens? What does this 
do--so what? What does this mean for actual production of food? 
So if you remember, back in 2012, we had one of the worst 
droughts in half a century, impacted almost the entire Union, 
in terms of the drought. And so some partners at the 
Sustainable Ag Research and Education Program at USDA, as well 
as the Conservation Technology Information Center, they did a 
survey from producers in the Central Midwest, here in these 
seven states, and they reached out to 759 producers, and they 
asked, what was your use of cover crops, and if you used cover 
crops. What happened to your yield? Well, we actually learned 
it was positive.
    So what you see here is a comparison from those who 
responded to the survey, producers that used cover crops as 
part of their rotation, they had about 11 percent higher yield 
off their drought-stricken fields than folks that did not use 
cover crops as part of the rotation. Again, it is about 
improving the health of the soils through all the benefits of 
cover crops, mulching, the biomass, that they get an 11 
bushel--11 percent increase in yield. And for soybeans, it was 
even higher. It was over 14 percent increase in yield for 
soybeans for folks that use cover crops.
    So, again, here is an example of how cover crops can help. 
At the end of the day, in my view, it is one of the best risk 
management tools we can offer a farmer or rancher from our 
quiver of conservation practices, but this is a great risk 
management tool. It helps not only maintain yield, but also 
protects farmers in periods of stress.
    Another core practice is nutrient management. So, part of 
an overall effective soil health management system is how you 
manage the nutrients of your soils. So there are the nutrients 
you apply through fertilizer, manure, poultry litter. It is the 
available nutrients that are left over from last year's 
application of fertilizers. It is the biomass, the residue that 
is left over from the crops. It is the actual deposition of 
nitrogen from the atmosphere, and how the microbes attenuate 
and incorporate those nutrients.
    So a nutrient management plan, using the 4R's of the right 
source, at the right time, the right rate, the right amount, 
using the 4R approach is part and parcel of an effective soil 
health management system. And this is something that NRCS is 
working very closely with foundations, research community, 
certified crop advisors, institutes, you name it. There is a 
broad array of folks who are working with producers to 
incorporate effective nutrient management into the soil health 
systems.
    Beyond row crop, though, I have talked a lot about row 
crops, we also are very interested and excited about--how do 
you improve soil health on range and pasture? So we have talked 
about how tillage is a disturbance to the soil. Well, 
overgrazing also is a disturbance of the soil. It is a 
biological disturbance. When you overgraze, you are stressing 
the plants. You actually have smaller root mass below the 
soils. You get more opportunity, then, to heat the soils, to 
cook those microbes, create drought stress in the plants--you 
provide more opportunity for weed penetration, invasive 
penetration.
    So what you see here, again, is out of South Dakota, a side 
by side comparison. On the left you have a pasture/range area 
that is in continuous grazing, and on the right you see a shot 
of a pasture that is in rotational grazing. So you are still 
getting the biomass and the necessary feed for livestock off 
rotational grazing, it just requires more intensive management 
of the livestock so they don't overgraze.
    Well, what does grazing have to do with it? How does it 
impact soils? What this shot is is a side by side of similar 
soil, same soil type out of South Dakota. On the left is a 
continuous grazing, and on the right is a rotational grazing. 
Same soil type. And you can see on the right the color--the hue 
of that soil is richer and deeper. That is reflective of more 
organic matter that is in that soil. And it is kind of hard to 
see there, but you can actually see the roots from the grasses 
that penetrated not inches, but feet deep into that rotational 
grazed soils.
    That is important, because those roots then create pores 
for water to infiltrate in, and for the nutrients, better 
access deeper into the soil profile. More habitat, again, for 
those microbes. So at the end of the day, the soils on the 
right are going to be more drought resistant, more resistant to 
invasives and weeds. And so, overall, you are going to have a 
more sustainable yield of forage off those lands than you would 
off a continuously grazed system.
    At NRCS, because of our focus on soil health, I just wanted 
to share something--very excited about, and it is kind of a big 
deal. For the first time, as I am aware, anywhere on Earth, we 
actually have mapped out the soil carbon stock for a continent. 
So what we completed over the last couple years is a survey 
across the United States. And we then, using our knowledge of 
soils, we have mapped out here what is the current stock, our 
banking of organic matter across the United States. These 
different colors here, those hues, the darker the blue, the 
more organic soils.
    You can see down, for example, in Florida, in the 
Everglades, or in northern Minnesota, in the forests of 
Northern Minnesota, high organic soils, so there is going to be 
a lot of organic matter there. In the desert, Southwest, 
obviously not much organic matter in the desert environment. As 
you can see, then, the gradiation of the organic content.
    Why is this important? So, for a conservation planter, or 
an agronomist, a farmer, you want to understand, what is my 
organic matter? What is my organic content? So now that we have 
that base underlying understanding of the soil pattern--or 
content--organic content, we also know the carbon carrying 
capacity for those soils. So then we can prescribe the most 
effective soil health management system to help not only 
protect the organic matter, but also boost organic matter in 
your soils.
    What this is, this reflects what you all have accomplished. 
This reflects the investment that this Committee has made 
through its vision, its support for conservation, and how 
conservation is critical to the success of soil health, and the 
implementation, that it is not just in corners of the country, 
but in literally all 50 states.
    What you see here are plots of EQIP contracts, 
Environmental Quality Incentives Program contracts, and 
conservation stewardship program contracts over the period of 
2009 through 2013, and was basically called out the soil health 
beneficial practices. So conservation crop rotation, cover 
crops, rotational grazing, mulch, no-till. So we looked at what 
are the core soil health practices, and the geo-plot of them, 
and this is what it looks like. Turns out we entered into over 
74,000 contracts on over 44 million acres across the United 
States. This is what your investments in working land programs 
looks like when you look at it from the lens of soil health.
    Beyond dollars, and tons, and acres, what it really, 
though, amounts to is us working with farmers and ranchers, 
with people, with producers. And so we are working very hard 
with partners, like with the National Association of 
Conservation Districts, with other organizations, to identify 
leaders in soil health across the country. So when we have been 
profiling producers, one of the best ways to actually share 
this information is to get other producers up to speed, excited 
about--engaged in soil health is they hear it from another 
farmer or rancher themselves. So we have examples of--profiles 
of these pioneers in soil health from across the country.
    Now, I wanted to highlight one of these pioneers. It is a 
farming operation. This is Ricky and Russell Wiggins out of 
Alabama. They are cotton and peanut farmers. They farm about 
2,700 acres in Alabama. And when they started in the soil 
health journey, their soil organic matter was around .75 
percent, less than one percent soil organic matter in their 
soils. Well, they decided, well, we wanted to try out some new 
soil health practices, so they converted to conservation 
tillage systems. They use high residue cover crops. You can see 
from the field there, they leave the rye grass in the fields to 
provide high residue to protect their soils, and provide better 
organic matter. And over time, over several years of using the 
soil practices, they have now increased their soil organic 
matter to over three percent.
    Well, what does that mean? It means their soils are, first, 
number one, easier to work with. They are more pliable. So 
then, when they have peanuts, they want to plow the fields, it 
is easier to pull those plows. They have to burn less fuel. 
They have to replace their implements, their tips and their 
plows, less often. Their terraces need less working, less 
maintenance cost in the terraces. When it does rain, the 
terraces flow clean. That means there is less maintenance in 
their ditches, in their water conveyance canals. So overall it 
is saving them money, saving them wear and tear, saving them 
fuel. And, in periods of drought like they experienced a couple 
years ago, when other producers in their area were not able to 
plant because the soils were dry, they could plant. They got a 
crop in the ground, they are able to get a harvest, because of 
their approach for soil health.
    And I would just like to conclude with just a real focus on 
why you--this Committee funds our agency. As the Chairman and 
Mr. Lucas pointed out, we work with America's farmers and 
ranchers. The programs that you fund help us work one on one 
with families. These are investments in businesses, in 
communities, in the economic success of these folks. And you 
are making investments in infrastructure, in the infrastructure 
of America's capacity to feed not only itself, but feed the 
world for generations to come.
    And, upon reflection, to me, something that is simple, but 
so easily overlooked as soil, it turns out it is fundamental, 
it is intrinsic to our ability to feed ourselves, to ensure the 
quality of our environment, and to ensure, ultimately, our 
economic well-being as a nation. So, with that, Mr. Chairman, I 
would be happy to answer any questions that you have. Thank you 
for the time.
    [The prepared statement of Mr. Weller follows:]

     Prepared Statement of Jason Weller, Chief, Natural Resources 
 Conservation Service, U.S. Department of Agriculture, Washington, D.C.
    Good morning, Chairman Thompson, Ranking Member Walz, and Members 
of the Subcommittee. Thank you for the opportunity to be here today to 
discuss the importance of soil health for our nation's agriculture, our 
environment, and our future.
Introduction
    For almost 80 years, the Natural Resources Conservation Service has 
been a pioneer in voluntary conservation, working with agricultural 
producers; forest managers; local, state, and Federal agencies; local 
communities; and innumerable partners to maintain healthy and 
productive working landscapes.
    Largely in response to the devastating effects of the Dust Bowl, on 
April 27, 1935, Congress passed Public Law 74-46 in which it recognized 
that ``the wastage of soil and moisture resources on farm, grazing, and 
forest lands . . . is a menace to the national welfare,'' and it 
directed the Secretary of Agriculture to establish the Soil 
Conservation Service (SCS) as a permanent agency in USDA. As President 
Franklin Roosevelt expressed in a letter to all state governors in 
1937, ``The nation that destroys its soil, destroys itself.''
    In 1994, Congress changed SCS's name to the Natural Resources 
Conservation Service (NRCS) to better reflect the broadened scope of 
the agency's focus. However, NRCS continues to fulfill the conservation 
legacy established in 1935 by Hugh Hammond Bennett, even as it adapts 
to changing concerns and takes on new responsibilities to address 
present and future challenges.
    Today, our focus on soils goes beyond erosion to include the 
overall health of our nation's soils. When we speak of improving soil 
health, we are talking about actually enhancing the soil's capacity to 
function as a vital, living ecosystem that sustains plants, animals, 
and humans.
    Previously, we were mostly concerned with the chemical and physical 
qualities of soil, so focusing on soil health reflects a fundamental 
shift in the way we view and manage soils. As one farmer recently 
observed, ``Anything can have quality, but only living things can have 
health.''
    Improving soil health simultaneously addresses many of our nation's 
most pressing natural resource needs. A healthy soil has better water 
holding capacity and therefore resilience to extreme weather like 
drought and heavy precipitation. Because improving soil health promotes 
water infiltration, this helps recharge the subsoil with water so more 
is available in time of need, and this greater infiltration means less 
nutrient and sediment runoff to our streams, lakes, and oceans. 
Conservation systems that enhance soil health also help increase carbon 
sequestration and organic matter, enhance nutrient cycling, provide 
pollinator habitat, reduce energy use, and produce the food, fiber, and 
bioenergy needs of our rapidly growing population. Farmers tell us that 
enhancing soil health also increases their profitability, thereby 
strengthening rural economies.
NRCS Role
    NRCS has developed and launched an integrated campaign that 
emphasizes conservation planning that focuses on soil health and builds 
the information, tools, and knowledge needed to help producers enhance 
the health of their soils. There are many components of this effort 
that build upon one another. To date, we have focused on:

  <bullet> Ensuring that the scientific basis for improving soil health 
        is reflected in agency conservation practice standards.

  <bullet> Reviewing scientific literature and case studies to provide 
        information needed by farmers on the benefits of soil health 
        management systems to their ``bottom line''.

  <bullet> Modeling efforts at the national scale to help inform 
        estimates of environmental benefits that may be achieved 
        through accelerated soil health management adoption.

  <bullet> Aligning funding priorities of our Conservation Innovation 
        Grant Program to support soil health adoption needs.

  <bullet> Leveraging NRCS's network of Plant Materials Centers to 
        conduct coordinated evaluations of cover crop mixes and their 
        impacts on soil health across different regions, and to use 
        these Centers as soil health training sites.

  <bullet> Ensuring that all field staffs across the U.S. are trained 
        in the basics of soil health. In just 6 months, we trained over 
        2,000 NRCS staff and partners on the fundamental principles for 
        improving soil health.

  <bullet> Establishing an on-line training library that currently 
        holds 28 soil health webinars conducted by university and 
        government scientists, farmers, and other partners. The 
        training library is available to agency staff as well as the 
        general public. Since January 2013, over 11,500 people have 
        participated in or viewed these soil health training webinars.

    In addition, NRCS has established a Soil Health Division 
responsible for acquiring, transferring, and implementing the latest 
technologies for increasing soil health. Soil Health Specialists across 
the country will work directly with producers, NRCS field staff, and a 
wide array of partners to assist in soil health management system 
implementation. Our Plant Materials Centers and partner field sites 
will be used as a national network of training and demonstration areas 
to promote adoption. While our initial focus is on cropland, we are 
already making plans for enhancing soil health on range and forest 
lands.
Partnerships in Soil Health
    Partnerships are key to the success of improving the health of our 
nation's soils. The soil health movement is exciting to be part of due 
to the speed of innovation and adoption by farmers and ranchers, as 
well as because of the huge array of partners--including agricultural 
production associations, universities, Soil and Water Conservation 
Districts, Federal agencies, and nonprofit conservation organizations--
that are leveraging each other's expertise and resources. Collectively, 
we are bringing forward new ideas, solutions, and practical on-the-
ground know-how to support producers.
    For NRCS, the core of our partnership is with individual farmers 
and ranchers with whom we work daily to plan and implement soil 
conservation measures that help them achieve their economic and 
conservation objectives. These producers are making positive soil 
health decisions field by field that together are generating benefits 
for not only their operations, but also at larger geographic scales 
such as in river or lake basins.
    The conservation programs supported by the 2014 Farm Bill are 
making a crucial difference in helping producers start soil health 
management systems on their operations. Soil health management is a 
systems approach that brings together suites of conservation practices 
that minimize soil disturbance, diversify soil biota, and maintain 
living roots and soil cover year round. Since 2009, significant numbers 
of producers have implemented soil health management practices through 
the Environmental Quality Incentives Program (EQIP) and the 
Conservation Stewardship Program (CSP) as shown in the chart below.

   Occurrences of Select Soil Health-Related Practices Applied in EQIP
                   Contracts Fiscal Years 2009 to 2013
------------------------------------------------------------------------
                                                Number of      Amount
   Practice Code          Practice Name         Contracts      (Acres)
------------------------------------------------------------------------
              328   Conservation Crop                3,468       707,256
                     Rotation
              329   Residue and Tillage              4,514     3,040,608
                     Management, No-Till/
                     Strip Till/Direct Seed
              340   Cover Crop                       9,541     2,294,294
              484   Mulching                         3,000       114,015
              512   Forage and Biomass              13,062       939,807
                     Planting
              528   Prescribed Grazing               6,575    10,072,933
              590   Nutrient Management             13,742     5,212,792
                                             ---------------------------
  Grand Total.....                                  53,902    22,381,705
------------------------------------------------------------------------


  Occurrences of Select Soil Health-Related Practices in CSP Contracts
                        Fiscal Years 2010 to 2013
------------------------------------------------------------------------
     Practice/                                  Number of      Amount
 Enhancement Code         Practice Name         Contracts      (Acres)
------------------------------------------------------------------------
              328   Conservation Crop                  497       290,333
                     Rotation
              329   Residue and Tillage                389       192,765
                     Management, No-Till/
                     Strip Till/Direct Seed
              340   Cover Crop                         313        85,522
            CCR99   Resource-Conserving Crop         1,484       577,622
                     Rotation
                PLT0Monitor key grazing              6,904    13,364,174
                     areas to improve
                     grazing management
            SOE05   Intensive no-till                  217       104,463
                     (Organic or Non-organic
                     systems)
               SQL04Use of Cover Crop Mixes          2,848       916,493
               WQL10Plant an annual grass-           1,959       667,171
                     type cover crop that
                     will scavenge residual
                     nitrogen
               WQL13High level Integrated            5,567     5,640,044
                     Pest Management to
                     reduce pesticide
                     environmental risk
               WQL21Integrated Pest                    115        61,417
                     Management for Organic
                     Farming
                                             ---------------------------
  Grand Total.....                                  20,293    21,900,003
------------------------------------------------------------------------

    NRCS is also partnering with diverse organizations, such as USDA's 
Risk Management Agency and Farm Service Agency, the National Soybean 
Association, Midwest Cover Crops Council, National Wildlife Federation, 
Univ. of Missouri, National Crop Insurance Services, Inc., and others 
to develop national guidelines for cover crops to ensure their 
beneficial use in crop production.
    NRCS is also working with the National Association of Conservation 
Districts to leverage the expertise and local delivery capacity of 
Conservation Districts to develop an inventory of demonstration sites 
to promote adoption of soil health management systems across the 
nation.
    To accelerate the knowledge of and exposure to soil health 
practices on farming and ranching operations, we partnered earlier this 
year with USDA Sustainable Agriculture, Research, and Education (SARE), 
the Howard G. Buffett Foundation, and the Soil and Water Conservation 
Society to hold a National Cover Crop and Soil Health Conference that 
reached over 6,000 producers in a single day on the benefits of cover 
crops and soil health management systems.
    We are partnering with the National Corn Growers Association, 
Monsanto, The Nature Conservancy, Environmental Defense Fund, USDA's 
Agricultural Research Service, and numerous universities in 
establishing and evaluating soil health demonstration field sites to 
encourage adoption of soil health promoting practices.
    Finally, NRCS is partnering with the Farm Foundation and the Samuel 
Roberts Noble Foundation to encourage adoption and elevate awareness of 
the economic, environmental, and production benefits of soil health 
management systems. And we are partnering with the National Grazing 
Lands Coalition to begin efforts to increase soil health knowledge and 
adoption on rangelands and pastures.
Benefits for Agriculture and the Environment
    The benefits of healthy soils are tangible for the producer, the 
environment, and ultimately the public. Farmers and ranchers in nearly 
all parts of the country, across a wide range of climate zones and 
cropping systems, are reporting that they see connections between 
improved soil health and more consistent (and often higher) yields, 
higher profit margins, and more weather-resilient operations.
    Weather resilience in soils has always been important and will 
continue to be even more so as we work to improve our natural defenses 
against climate change and extreme weather, such as extended droughts 
and severe storms, as well as indirect effects such as changing threats 
from pest populations and plant diseases. Healthy soils will be a key 
component for agricultural producers to successfully adapt to these 
challenges and will help ensure that we can continue to meet the food 
demands of a growing population. We are already seeing specific 
examples of how healthy soils are making a difference.
    Following the historic drought in 2012, USDA-SARE and the 
Conservation Technology Information Center surveyed over 750 farmers 
about their use of cover crops. Cover crops, which are grown during the 
off-season to reduce erosion, conserve moisture, and build organic 
matter, are an important tool for enhancing soil health. In the seven 
states hit hardest by drought in 2012, farmers using cover crops in 
their production mix had corn and soybean yields that were 11-14 
percent higher than those without a cover crop.
    In addition to survey information from producers, NRCS has learned 
of positive soil health results directly from individual producers. For 
example, Steve Groff farms 225 acres in Lancaster County, Pennsylvania, 
where he grows corn, soybeans and small grains, as well as pumpkins. 
Through more than 30 years of using no-till and multi-species cover 
crops, Mr. Groff reports that he has increased his soil organic matter 
from two percent to almost five percent, and has obtained yields that 
exceed local averages by ten percent.
    Gabe Brown, who farms about 2,000 acres near Bismarck, North 
Dakota, keeps soil covered with dense, diverse plants and cover crops, 
while also integrating livestock into his soil health management 
system. Mr. Brown reports that he has more than doubled his soil's 
organic matter content, and these healthy soils have resulted in higher 
than county-average yields.
    In Carroll, Ohio, Dave Brandt farms a corn-soybean-wheat rotation 
on 1,500 acres. For more than 35 years, he has used a soil health 
management system with no-till, diverse cover crop mixes, and crop 
rotations; and has increased his soil's organic matter from two percent 
to over five percent. Even during the drought of 2012, Mr. Brandt 
reported that he averaged 170 bushels of corn per acre, which was 
nearly twice the yield of his conventional farming neighbors.
    Ray Styer, who grows corn silage and multi-species cover crops on 
80 acres in Rockingham County, North Carolina, reports that he has more 
than tripled his soil organic matter and obtained yields that are 4 
tons per acre above the county average.
    While these examples show that soil health is making a difference 
in the lives of individual farmers, their families, and their 
profitability, the broader public value of the conservation investment 
should also be recognized. The value of soil health for resilient food 
production systems is seen in the marketplace every day. Benefits to 
the environment are also demonstrable.
    Our Conservation Effects Assessment Project, which has now 
evaluated conservation impacts covering over 300 million acres of 
cropland, has estimated that the same practices we use to enhance soil 
health--such as no-till, cover crops, and crop rotation--have reduced 
edge-of-field sediment loss by 47-73 percent, phosphorus loss by 33-59 
percent, and nitrogen loss in runoff by 35-58 percent.
    Yet, there is more to be done. Events like drought in Texas and 
California and algal blooms in Lake Erie and Lake Champlain, coupled 
with the need to meet the demand for food, fiber, and fuel for a 
growing population, tell us the time is now to enhance the health of 
our nation's soils.
Conclusion
    Mr. Chairman, I will conclude by saying that I believe improving 
the health of our nation's soils is one of the most important things 
that we can do for this and for future generations. That is because 
improving soil health not only supports growing the food, fiber, and 
fuel needed by a rapidly expanding world population, but it also allows 
us to simultaneously address some of our nation's most pressing natural 
resource needs. It allows us to increase resiliency to extreme weather 
events, improve water quality, increase carbon sequestration, enhance 
habitat for pollinators and other wildlife, increase farm 
profitability, and we believe also reduce economic risk associated with 
crop production.
    I thank you for the opportunity to be here today, and I will be 
happy to answer any questions you may have.
                        PowerPoint Presentation
                        
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Chairman. Thank you, Chief, I very much appreciate your 
testimony. The chair would like to remind Members that they 
will be recognized for questioning in order of seniority from 
Members who were present at the start of the hearing. After 
that, Members will be recognized in order of arrival, I 
appreciate the Members' understanding. And I am--after saying 
all that, I am going to defer to last. I will recognize the 
Chairman of the full Agriculture Committee for 5 minutes for 
questions.
    Mr. Lucas. Thank you, Mr. Chairman. Chief, tell us, from 
your perspective, your vantage point, kind of on the front line 
of all these issues, how you see the resources that you have at 
the Service, how you see the needs evolving out there, how you 
see the science coming together. Tell us, and I am asking you a 
general purpose question for a general purpose answer, how you 
see the response out in the community. And we will hear more 
from that from the second panel. Just give us a feel where you 
believe we are in this endeavor to bring a greater focus to the 
living soil.
    Mr. Weller. Thank you. I think where I began my testimony, 
in part the excitement and the energy, is really--you can feel 
it. And the passion that we have focused within NRCS that 
really believe with all their fiber this is the right thing to 
do, and they are very excited about it. And in part these 
folks, like Mr. Ray Archuleta may be some of you may have met, 
he has been working--he is a conservation agronomist with NRCS, 
and he has been talking about soil health for decades. And the 
fact this is all now coming to fruition has helped energize 
NRCS employees.
    But because we are now taking, the last several years, a 
real focus on now--beyond just talking about it, but actually 
providing training for folks, that it is really energized our 
field folks, who have been very busy and very focused on 
delivering program assistance and planning assistance. But it 
has helped a lot of folks re-orient back to the creation of our 
agency, and it is there--farmers and ranchers, and to help them 
improve and manage their soils. I think that return that--
literally getting our hands dirty in the soil has really been 
energizing and enervating for NRCS.
    But from the producer side, this is an example where, 
instead of having to push a wet rope uphill, try this out, we 
are actually getting pulled up the hill. We are trying to hold 
on to the rope as hard we can because the producers are very 
motivated, very excited. They are innovating. They are the ones 
that are coming up with a lot of these different practices. 
They are doing strip trials in their fields. They are using 
different cocktails of cover crop mixes. They are willing to 
subject their fields to different experiments, and all this, 
and they are coming back with great information that then they 
are sharing with their neighbors, and other producers in their 
communities, and within their own agricultural associations.
    The level of excitement and the momentum is only building, 
and that has been very rewarding to be part of, and to help 
NRCS play that role. The resources this Committee provides, and 
Congress provides our agency, are, in my view, critical, and 
very much part and parcel of helping to get soil health 
practices implemented. It is that one on one technical 
assistance planning which is so crucial to help impart that 
knowledge.
    But then, in some cases, it is folks who want to give it a 
try, but they are leery of the cost, or it may be encumbering 
risk. It is a transition to a different cropping system. We can 
help offload some of that risk, and allow them to experiment 
with different nutrient management approaches, and cover crops, 
and tillage practices to help them get up to speed. I think we 
are well equipped for it. We have a ways to go, but we have had 
a great start, and there is a lot of opportunity.
    Mr. Lucas. In my home area, Chief, the advance in 
technology, the private industry, the people who produce our 
seeds, and build our equipment, the general phrase is precision 
agriculture. It just goes hand in hand with this, wouldn't you 
agree? The technology that has been developed out there by 
industry that enables us to literally do, foot by foot, acre by 
acre, what is appropriate for the soil.
    Mr. Weller. And precision agriculture is a definite example 
where--this is where our agency really has got to pick up pace, 
where I think the degree of innovation that is coming out of 
the research community, but particularly from the agricultural 
implement dealers, and the researchers, it is incredible. In 
precision agriculture, it absolutely is part and parcel, and 
can definitely--even make soil health even more effective. You 
can optimize your use of nutrients, and manage your soils most 
effectively. So, yes, precision agriculture is a great tool for 
improving the health of your soils.
    Mr. Lucas. Mr. Chairman, I would simply note that, from the 
founding of--from the first arrival of Europeans, perhaps the 
way to describe it, until a century ago, the concept of mining 
the soil existed. It was a resource that you utilized, then you 
moved on. Starting in the 1930s, perhaps, with a particular 
focus in my region and the southern, the Great Plains, and the 
east side of the Rockies, and the evolvement of the Soil 
Conservation Service, the predecessor to the NRCS, the focus 
began to shift that this was something that was not to be used 
and thrown away, but it was to be truly nurtured. And now we 
are apparently taking the next step, so progress is a positive 
thing, and we are in that direction. With that, I yield back to 
the Chairman my remaining time.
    The Chairman. I thank the Chairman for yielding back. I now 
recognize the gentleman from Ohio for 5 minutes.
    Mr. Gibbs. Thank you, Chairman. Thank you, Chief, for being 
here. You need to ratchet up that passion a little bit more. It 
is great, because obviously it is--but I have been doing no-
till probably for 20 years, so you are not--don't have to tell 
me. It has been great--back in the 1990s, and--Soil and Water 
Conservation Board. And the partnership with NRCS, and the 
county conservation districts is the way to really go, and the 
EQIP program, when it all comes together, it works really good. 
And in my area, it is almost all no-till. I live in eastern 
central Ohio. Probably pretty hard to see an old--plow anymore.
    But in your written testimony you talk about events like 
drought in Texas, and California, and the algae blooms in Lake 
Erie, and I want to talk about that a little bit, because, as 
you know, we have algae bloom problems, especially on the 
western part of the lake, but a couple years ago it was 
throughout the lake, because Lake Erie is the most sensitive 
lake because it is so shallow. And here, not--just several 
weeks ago, City of Toledo had to shut down the drinking water 
to half a million people for 3 days.
    And I want to give kudos to the--Howe Farm Bureau. They are 
putting in a million dollars to try to address the problem, 
because farmers want to find a solution. They want to be part 
of the solution, and--and I think there are other causes. And 
one thing that frustrated me, we don't know what all the causes 
might be. We are speculating. We have the sewage treatment 
plants, and combined sewer overflows, and you have runoff, and 
all that.
    But for my first question, I know Robert E. Latta, my 
colleague from Ohio, has a bill out there to try to address 
causes. I am looking at it, as my Chairman of the Committee I--
trying to look at--causes and solutions. What--obviously no-
till helps mitigate the spread, or the erosion, but we are 
starting to see, and I want to see if you concur with this, 
during heavy rain events, I mean talking, like, getting 4" or 
5" in an hour's time--I am sure Chairman Lucas would like to 
have some of that water. We get it once or twice a year.
    You know, that does a couple of things. If our sewage 
treatment plants end up over capacity--they have direct 
discharges. And--even all the practice we do in agriculture, 
those kind of events, it is a challenge. Would you agree that 
that is where a lot of the--we have--I guess--the conservation 
we are putting in to address normal weather activities. It is 
those extremes is where the problem is, or am I just----
    Mr. Weller. My understanding is, yes, at the end of the 
day, if it rains so much, there is only so much that a field 
can attenuate, and so the basic conservation systems, like no-
till, is an effective way for normal precipitation. When you 
have extreme weather events, yes, you are going to have--no 
matter what, you are going to have water--but it is also, then, 
looking at a systems approach for conservation, so it is 
looking about how you buffer your fields.
    Mr. Gibbs. Yes.
    Mr. Weller. To the extent you have till lines, you are 
draining the fields through--water management practices, you 
could, again, help attenuate what comes out of the till lines. 
It is looking at cover crops as part of the overall no-till 
operation. It is the nutrient management I talked a little bit 
about earlier.
    Mr. Gibbs. Let me just follow up: and I don't know the 
answer to this. I am not certain. In my area, like I said, we 
do all no-till. We don't have heavy soil. I have HAL ground, 
highly arable land. Now, out in northwestern Ohio, I guess the 
soils are heavier. I know in some parts it is really heavy. 
What is--is no-till hard to adapt in those heavy soil, or does 
it work as well, or----
    Mr. Weller. I--my understanding is it is effective, that 
folks are using no-till, even in those heavier soils. It is 
perhaps a different management approach, and it takes some 
adjustment, but it is something that can be adapted, even 
through a heavier soil environment.
    Mr. Gibbs. Okay. Because that would be helpful to address 
this issue, especially in northwestern Ohio, in that--in the 
Maumee Watershed up there--so that is--Mr. Chairman, I just 
wanted to bring that up because it is a huge challenge, and it 
is--of course, it is not just in Lake Erie. We--you mentioned 
here, and I know in the Chesapeake Watershed, and there are 
some other areas that we have that. There are other factors, 
such as weather.
    And, like I said a moment ago, it is good to see that 
organizations like Ohio Farm Bureau putting up a million 
dollars to partner with Ohio State University and others, EPA 
and all the others, to try to address this and find solutions. 
But agriculture wants to find a solution, to be part of the 
solution, so I yield back.
    The Chairman. I thank the gentleman for your--I also thank 
the gentleman for--as someone who now--certainly within my 
Congressional district shares Lake Erie with the good Members 
in Ohio, and I appreciate you bringing up the impact, and how 
this could help mitigate the most recent situation there.
    Chief, thanks so much for your testimony, and, as Mr. Gibbs 
said, your passion. It was very evident, and I thank you for 
that. Chief, can you discuss--you had made reference to the 
work that we did with the 2014 Farm Bill. You know, what impact 
do you expect from those provisions that we have provided you, 
those tools we provided you? What do you expect the new law to 
have on soil health?
    Mr. Weller. So starting with just--thank you very much. 
Title II is an incredibly strong title. Starting with the 
streamlining of the programs, and consolidating basically into 
the financial assistance program, into a stewardship program, 
and then into an easement program, that streamlining is going 
to help our folks in the field, reduce some confusion for 
producers. And we want to focus on soil health. We then sort of 
have the financial assistance program that helps get the 
practices in place, the stewardship, which will then help 
take--allow producers to take their nutrient management, and 
their tillage, and their cover crop use to the next level, in 
terms of overall stewardship.
    And then you included the Regional Conservation Partnership 
Program, which is this overarching smorgasbord of opportunity, 
and that, then, allows for innovation. And--so we held an 
original sign-up earlier this summer. We are having a two-step 
approach here to the first RCPP sign-up. We have received close 
to 600 applications to the new Regional Conservation 
Partnership Program, and many of those applications include a 
focus on soil health.
    And what is exciting here is because this program then 
turns the keys over to the partners, they devise where they 
want to work, how they want to work, what programs they want to 
use, who is enrolling in the program. They can then devise new, 
innovative ways to practice soil health, to get it on the 
landscape, to get it into a river basin.
    What title II has provided us is to give the agency a lot 
of flexibility to go out and do the good work, in this case, of 
helping producers apply soil health, but then it also has 
energized and provided a lot of impetus to the conservation 
community, through the regional program, to get their 
resources, ideas, excitement, energy, partnership to the table, 
and they can then also push out, and move out, and demonstrate 
what can be done in soil health as well.
    The Chairman. Excellent. And how about--can you give us an 
update of--sounds like we have provided you some pretty 
effective tools. Was there--it is good to hear. That is very 
affirming. Just kind of an update, in terms of implementation, 
we know that--when there are changes made it takes time in 
order to align the resources with the implementation. They--any 
kind of insight, in terms of implementation of those 
provisions?
    Mr. Weller. Well, hopefully you are hearing good 
implementation. I would like to think, our agency, one of the 
hallmarks is we are no drama mamas at NRCS. We have actually 
gotten title II implemented. So we haven't yet gotten the regs 
implemented, but because in title II you included language 
there that allowed us to use our underlying regulation, as long 
as we updated our programs to fit with the new law, the new 
statute.
    We have enrolled EQIP. We have done--we are about to 
complete enrollment with CSP. We are going to get close to 10 
million acres in CSP. We have pushed out all $300+ million of 
ACEP money across the United States, enrolling 129,000 acres in 
ACEP. We have the voluntary public access money out the door. 
We have the Watershed Rehab Program. We are going to get almost 
all of the $250 million invested into hundreds of projects 
across the United States. So we have implemented.
    What we are now, then, moving into is the actual following 
up with the regulations. And so those regulations will be out 
early this fall. We already have one out of the chute, which is 
sort of a catch-all regulation that sort of covers some of the 
miscellaneous issues, and we have three more, then, regulations 
that are coming, the Conservation Stewardship Program rule, 
EQIP program rule, and the new easement program, ACEP, rule. 
Those will be out this fall.
    The Chairman. Excellent. Well, I personally believe, and I 
think the Members here would agree that the environment has 
benefitted so much by the voluntary effort and work of our 
farmers and ranchers, in collaboration with--from USDA, the 
professional--USDA, which we are very appreciative of. I think 
it is a much more productive approach, using a spirit of 
collaboration, as USDA is known for, than perhaps maybe a 
sister agency, such as the EPA, which seems to take a more 
punitive approach.
    But that said, what do you see as the--we are not 100 
percent onboard with some of these practices. They haven't 
really been embraced. Why do you think they are--is there 
resistance out there to some of this--it is not new science. It 
is kind of old science that has kind of resurfaced. What do you 
see as the barriers to enlisting more--with your collaboration, 
more farmers and ranchers to engage?
    Mr. Weller. At the end, when you were asking a farmer to 
change how they work their land, and in some cases it is--this 
is what their dads did, and their granddads, and their great-
granddads, it works. And the old adage, don't fix what is not 
broken, if they can get a crop, they are making a living, they 
are doing okay, why introduce what could potentially be a risk 
to trying something different?
    And that is where we at NRCS, and the broader coalition of 
folks who are looking at this, need to really get our arms 
around the science and economics of soil health. First, beyond 
just anecdotally, we really have to have robust peer reviewed 
science that talks about the actual risk management. Second, we 
have really got to get down to dollars and cents. At the end of 
the day, the most effective conservation is conservation that 
helps save money, or actually makes money. That's because you 
are talking to businesspeople. They have to make a living. They 
have to pay a mortgage. They want to send their kids to school. 
So if you are asking them to invest a lot of money out of their 
own pocket, it has to make sense, and work on their operation.
    And getting our arms around the economics, and 
demonstrating again that soil health practices not only manage 
risk, but can also help make money, or at least save money, at 
the end of the day, you have a net gain in the profit of that 
business, and those are the two critical things that we are 
really focused on getting answers to.
    The Chairman. Great. Thanks, Chief. At this point we are 
willing to yield any additional time to my colleagues for 
additional follow-ups.
    Mr. Lucas. Just simply, Mr. Chairman, that I would note 
that the Chief is doing an outstanding job, and the agency is 
working through a lot of things that we have thrown at them, 
but clearly they are on the right track, and incentive-based 
voluntary conservation is still what life is all about.
    The Chairman. It is working. Thank you, Mr. Gibbs. Chief, 
thank you very much for your----
    Mr. Weller. Thank you.
    The Chairman.--leadership, your passion on this. And we 
look forward, as a Subcommittee, to continue to work with you 
in a strong partnership, as well as the full Committee.
    Mr. Weller. Thank you, sir. We very much appreciate that 
partnership.
    The Chairman. My pleasure. The--I now--would like now to 
welcome to the table our second panel of witnesses, Mr. John 
Larson, CEO, National Association of Conservation Districts, 
Ms. Shanon Phillips, Director of Water Quality, Oklahoma 
Conservation Commission, Oklahoma City, Oklahoma, Mr. Jim 
Harbach, Farm Manager, Schrack Farms, Loganton, Pennsylvania, 
Sugar Valley, Ms. Jill Sackett, Extension Educator, Ag 
Production Systems, University of Minnesota Regional Office, 
Mankato, Minnesota.
    I want to thank the witnesses for making the time and the 
investment to come here to share your perspectives on this very 
important issue. And I now recognize Mr. Larson for 5 minutes.

  STATEMENT OF JOHN LARSON, CHIEF EXECUTIVE OFFICER, NATIONAL 
    ASSOCIATION OF CONSERVATION DISTRICTS, WASHINGTON, D.C.

    Mr. Larson. Thank you. Good afternoon, Chairman Thompson, 
Chairman Lucas, and Members of the Committee. I am John Larson. 
I welcome the opportunity to be here, and to talk about this 
important topic of soil health. I am the Chief Executive 
Officer of the National Association of Conservation Districts, 
and I have worked directly with conservation districts for more 
than 18 years, prior to which I worked full time as an 
agricultural producer, running my family's irrigated farm in 
Royal City, Washington.
    NACD is a nonprofit organization that represents America's 
3,000 conservation districts, their state and territory 
associations, and the 17,000 men and women who serve on their 
governing boards. Districts are the local government part of 
the conservation delivery system, and work with millions of 
cooperating land owners and operators to help them manage and 
protect land and water resources on all private lands, and many 
public lands, in the United States, utilizing that voluntary, 
incentive-based approach. I like to think of the conservation 
districts as the original pioneers of soil health. Soil health 
is, and has been, one of the top priorities of conservation 
districts across the nation since their creation in the 1930s. 
In fact, soil health is the very reason that districts were 
created.
    Long term nationwide conservation and production practices 
have resulted in better protection of our precious soil and 
water resource base, the foundation of our nation's food 
supply. Conservation districts play a key role in this process 
by working with local producers and land owners to implement 
critical conservation practices on the ground. In Indiana, 
districts are key members of the multi-partner Conservation 
Cropping System Initiative that has vaulted that state to a 
leading position in the soil health movement. In North Dakota, 
the Burleigh County Conservation District adopted soil health 
as its major focus 20 years ago, and today national and 
international visitors have come to the district for soil 
health tours and workshops. Other districts are renting no-till 
drills, supplying cover crop seed, facilitating farmer-led soil 
health advocates, providing no-till test plots, and much, much 
more.
    Through these, and other efforts, conservation districts 
across the nation are helping producers and land owners get the 
tools that they need to continue caring for the land and 
provide food, feed, fiber, and fuel for the world. We firmly 
believe that it is better to invest in long term conservation 
practices today than to be forced to pay the escalated cost of 
repair in the future.
    The benefits of improving soil health reach far beyond the 
farm. Health soils lead to higher water quality, by allowing 
for better nutrient cycling, and reducing sediment runoff, a 
better ability to manage water, reduce flood damage, an 
increase in the amount of soil carbon sequestration that the 
soil does itself. The benefits of nutrient management on soil 
fertility within a productive and healthy cropping system 
utilize soil health practices that are assisting producers. As 
the Chief mentioned, the 4R's nutrient stewardship approach, in 
which producers apply the right source of nutrients at the 
right rate, at the right time, and in the right place, fits 
perfectly into soil health.
    In the past several years NACD and its member conservation 
districts and associations have been working hard to put a 
renewed focus on soil health. These efforts include partnering 
with NRCS on an integrated campaign to increase the adoption of 
soil health management practices by America's farmers and 
private land owners. By increasing the health of our soils, the 
campaign ultimately seeks to produce systematic, continental-
scale improvements in soil, water, air, wildlife, all while 
enhancing the long term agricultural productivity, and 
providing the best return on the nation's conservation 
investment over the long term.
    However, while we are seeing improvements nationwide in 
both the recognition and the need for the adoption of best 
management practices for soil health, there is still work to be 
done. Specifically, we see five main areas that need--that are 
needed in the future: (1) developing specific soil health 
conservation practice criteria; (2) increasing soil health 
research, both the scientific and economic; (3) training NRCS 
conservation district and other partners and employees; (4) 
ensuring farm bill programs facilitate farm bill health--
healthy soils adoption; and (5) communicating the benefits of 
soil health to both the agriculture and urban audiences.
    In summary, to make measurable improvement in soil health 
at the national level, will require a locally led voluntary 
coordinated effort. Because of their strong relationships with 
local land owners, as well as with their strong reputation as a 
trusted source of conservation planning and implementation at 
the local level, conservation districts are well poised to 
continue to play a leading role in these efforts in the 
partnership with local, state, and Federal partners.
    Mr. Chairman, as you stated, the population is expected to 
hit nine billion by 2050. We believe that the widespread 
adoption of soil health practices is what will make us 
successful in meeting that need. If we act now, we have the 
chance to make a difference on the land that will last for 
generations. Thank you for the opportunity to be here today, 
and for holding this hearing to help shine a spotlight on the 
important issue of soil health. I look forward to your 
questions.
    [The prepared statement of Mr. Larson follows:]

 Prepared Statement of John Larson, Chief Executive Officer, National 
        Association of Conservation Districts, Washington, D.C.
    Good morning, Chairman Thompson, Ranking Member Walz, and Members 
of the Subcommittee. Thank you for the opportunity to testify on the 
important topic of soil health. I am John Larson, Chief Executive 
Officer of the National Association of Conservation Districts (NACD). I 
have worked directly with conservation districts for more than 18 
years, prior to which I worked full-time as an agriculture producer, 
running my family's irrigated farm in Royal City, Washington.
    NACD is the nonprofit organization that represents America's 3,000 
conservation districts, their state and territory associations, and the 
17,000 men and women who serve on their governing boards. Conservation 
districts are local units of government established under state law to 
carry out natural resource management programs at the local level. 
Districts are the local government part of the conservation delivery 
system and work with millions of cooperating landowners and operators 
to help them manage and protect land and water resources on all private 
lands and many public lands in the United States.
    The association was founded on the philosophy that conservation 
decisions should be made at the local level with technical and funding 
assistance from Federal, state and local governments and the private 
sector. As the national voice for conservation districts, NACD supports 
voluntary, incentive-based natural resource conservation programs that 
benefit all citizens.
    I like to think of conservation districts as the original pioneers 
of soil health. Soil health is, and has been, one of the top priorities 
of conservation districts across the nation since their creation in the 
1930s. In fact, soil health is the very reason why districts came into 
being.
    In the early 1930s, along with the greatest depression this nation 
ever experienced, came an equally unparalleled ecological disaster 
known as the Dust Bowl. Following a severe and sustained drought in the 
Great Plains, the region's soil began to erode and blow away, creating 
huge black dust storms that blotted out the sun and swallowed the 
countryside. Thousands of ``dust refugees'' left the black fog to seek 
better lives.
    But the storms stretched across the nation as soil blown from the 
Great Plains reached east to New York. Dust even sifted into the White 
House and onto the desk of President Franklin D. Roosevelt.
    On Capitol Hill, while testifying about the erosion problem, soil 
scientist Hugh Hammond Bennett threw back the curtains to reveal a sky 
blackened by dust. Congress unanimously passed legislation declaring 
soil and water conservation a national policy and priority and creating 
the Soil Conservation Service to fight it. Because nearly \3/4\ of the 
continental United States is privately owned, Congress realized that 
only active, voluntary support from landowners would guarantee the 
success of conservation work on private land.
    In 1937, President Roosevelt wrote the governors of all the states 
recommending legislation that would allow local landowners to form soil 
conservation districts. Today, nearly every county in the U.S. and 
several territories, are served by a conservation district.
    As many of you will remember, 2 years ago, our nation experienced a 
drought of proportions we haven't seen since the 1930s and 1950s. 
However, despite this extreme drought, we didn't enter into a modern-
day Dust Bowl situation. There's a good reason for that--and it's 
something that all of us in the conservation community can be proud of: 
careful, long-term nationwide conservation and production practices 
that started mainly in response to the Dust Bowl of the 1930s. The 
implementation of these practices has resulted in better protection of 
our precious soil and water resource base--the foundation of our 
nation's food supply.
    While we can't control weather conditions, strong, locally-led 
conservation planning can help alleviate the impacts of extreme weather 
events in the future. Conservation districts play a key role in this 
process by working with local producers and landowners to implement 
critical conservation practices on the ground.
    For example, in Indiana, districts are key members of the multi-
partner Conservation Cropping System Initiative that has vaulted the 
state to a leading position in the soil health movement. In North 
Dakota, the Burleigh County Soil Conservation District adopted soil 
health as its major focus 20 years ago; today, national and 
international visitors have come to the district for soil health tours 
and workshops. Other districts are renting no-till drills, supplying 
cover-crop seed, helping to organize aerial seeding of cover crops, 
facilitating farmer-led soil health cadres, providing no-till test 
plots, and much more.
    Through these and other efforts, conservation districts across the 
nation are helping producers and landowners get the tools they need to 
continue caring for the land and providing food, feed, and fiber for 
the world. We firmly believe that it's better to invest in long-term 
conservation measures today, than to be forced to pay for the escalated 
costs of repair in the future. Without question, we believe that soil 
health is the key to the future productivity of agriculture and the 
protection of our natural resources.
    ``Soil health'' is defined as ``the continued capacity of soil to 
function as a vital living ecosystem that sustains plants, animals, and 
humans.'' Healthy soil ecosystems allow for increased water 
infiltration, improved water-holding capacity, enhanced nutrient 
cycling and sequestration, and increased biodiversity.
    Historically, soil management activities focused on the physical 
and chemical functions of the soil. Today's emphasis on soil health 
recognizes the critical importance of biological function in the soil. 
``Soil Ecology'' emphasizes that soil is a living ecosystem. This 
ecosystem is impacted by chemical (i.e., fungicides), biological 
(monocultures) and physical disturbance (tillage) that diminish soil 
function.
    There are four key management principles to improve soil ecosystem 
function: (1) minimize the chemical, biological, and physical 
disturbance in the soil; (2) keep the soil covered as much as possible 
throughout the year; (3) maintain a living root, growing for as long as 
possible, to feed the soil microbes and transfer more solar energy into 
the soil; and (4) increase crop diversity above ground to add 
biological diversity to the soil. These basic management activities are 
central to improving soil health.
    The benefits of improved soil health reach far beyond the farm. 
Healthy soils lead to higher water quality, by allowing for better 
nutrient cycling and reducing sediment runoff; a better ability to 
manage water and reduce flood damage; and an increase in the amount of 
carbon sequestered in the soil itself.
    Due to its increased water-holding capacity, healthy soil is more 
resilient against drought; it is also naturally less prone to disease 
and pest problems, thereby allowing farmers to optimize their use of 
crop protectants. And because healthy soil requires fewer petroleum-
based products for tillage it also saves on energy use and costs.
    In the past several years, NACD, and its member conservation 
districts and associations, have been working hard to put a renewed 
national focus on soil health. These efforts include partnering with 
the USDA Natural Resources Conservation Service on an integrated 
campaign to increase the adoption of soil health management practices 
by America's farmers and private landowners. We anticipate conservation 
districts providing guidance to determine their local soil health needs 
and finding ways to best implement a suite of practices aimed at 
improving soil health. It is important that districts remain the boots 
on the ground to help solve local natural resource issues. By 
increasing the health of our soils, the campaign ultimately seeks to 
produce systemic, continental-scale improvements in water, air, and 
wildlife--all while enhancing long-term agricultural productivity and 
providing the best return on the nation's conservation investment over 
the long term.
    NRCS and conservation districts are not alone in this effort--we're 
seeing an increasing interest from a wide range of stakeholder groups, 
organizations and businesses that recognize the potential benefits of 
healthy soil to production improvements, sustainability, profitability 
and resource protection--all of which are advantageous to their 
stakeholders. Many of these organizations are poised to help spread the 
word about the basics and benefits of soil health and to encourage 
their adoption.
    NACD also recently was awarded, a $750,000 Conservation Innovation 
Grant to promote soil health over a 3 year period. Through this 
project, we seek to significantly scale up the number of farmed acres 
nationwide that are managed for soil health. The project addresses two 
main barriers: a shortage of economic and cost-benefit information on 
soil health management; and insufficient transfer of knowledge to 
farmers of available, innovative practices and technologies for local 
conditions.
    Through the formation of a national ``farmer advocate'' network-
organized by NACD and facilitated by its local districts, and state and 
territory associations--this project will raise awareness of and 
increase the adoption by farmers and landowners of soil health 
practices. This includes farmer-to-farmer information on the use of new 
soil testing procedures, timing of cover cropping practices, 
considerations on what practices to use for wet and cool soils, on-farm 
demonstrations, and the development of strategies to broaden and 
accelerate action. The project will also provide a series of economic 
case studies to serve as the basis for an expert-reviewed economic 
analysis on the value of soil-health practice implementation.
    Through these and other efforts, conservation districts are proud 
to be leading the way in soil health.
    However, while we are seeing improvements nationwide in both the 
recognition of the need for, and the adoption of, best management 
practices for soil health, there is still work to be done. 
Specifically, we see five main areas of need for the future: (1) 
developing specific soil health conservation practice criteria; (2) 
increasing soil health research--both scientific and economic; (3) 
training NRCS, district and partner employees; (4) ensuring farm bill 
programs facilitate soil-health adoption; and (5) communicating the 
benefits of soil health to both agriculture and urban audiences.
    In summary, to make measurable improvements in soil health at the 
national level will require a locally-led, voluntary, coordinated 
effort. Because of their strong relationships with local landowners, as 
well as their strong reputation as a trusted source of conservation 
planning and implementation at the local level, conservation districts 
are well poised to continue to play a leading role in these efforts, in 
close partnership with local, state and Federal partners.
    Mr. Chairman, if population growth projections are correct, in a 
few short decades our population will hit nine billion. To feed this 
many people will require a significant increase in food production, and 
we will have to do it while coping with erratic weather conditions and 
while still conserving our natural resources. We believe that the 
widespread adoption of soil health practices is what will make us 
successful. If we act now, we have a chance to make a difference on the 
land that will last for generations.
    A recent resolution, H. Con. Res. 95, underscores this very point--
expressing the sense of Congress that voluntary, incentive-based, 
private land conservation, provided in partnership with local soil and 
water conservation districts, is necessary to sustain natural 
resources, meet the needs of a growing population, and ensure safe, 
abundant, and adequate resources for current and future generations. We 
are extremely pleased to see our Representatives in Washington 
expressing support for locally-led, natural resource conservation and 
its critical value to our nation's economic and food security. The 
cause of conservation crosses geographic, political and economic 
boundaries; it is truly something that everyone can support. Caring for 
our soil and other natural resources is one of the greatest legacies we 
can leave for our future generations. We urge all of you to support 
this commonsense, bipartisan resolution.
    Thank for you the opportunity to be here today and for holding this 
hearing to help shine a spotlight on the important issue of soil 
health. I look forward to your questions.

    The Chairman. Thank you, Mr. Larson. Thank you for your 
testimony.
    Ms. Phillips, you are now recognized for 5 minutes.

         STATEMENT OF SHANON PHILLIPS, DIRECTOR, WATER
            QUALITY DIVISION, OKLAHOMA CONSERVATION
                 COMMISSION, OKLAHOMA CITY, OK

    Ms. Phillips. Thank you, Mr. Chairman, Committee Members. 
My name is Shanon Phillips. I am with Oklahoma Conservation 
Commission, and I very much appreciate the opportunity to speak 
with you this morning about soil health, and its relationship 
to water quality. I think many of us appreciate how critical 
soil health is towards a strong agricultural industry, but, 
unfortunately, fewer people seem to appreciate how critical it 
also is towards supporting and protecting the nation's water 
supplies.
    And we have already talked about how soil health can reduce 
water pollution, because healthier soils have greater 
infiltration rates, which means there is less runoff of 
pollutants that then enter our nation's waterways. Healthier 
soils require less supplemental fertilization, which also means 
lower opportunities for pollution of nutrients to our nation's 
waterways. And, finally, healthy soils are living soils, which 
promote a multitude and variety of microbial communities, which 
also break down some pollutants into compounds that are less 
problematic when they enter our waterways. And we know, from 
data that has been provided by states to the U.S. EPA, that at 
least 60 percent, shown here by the colored wedges on the pie 
chart, of the pollutants which cause impairments to water 
bodies and our nation's waters are related to pollutants that 
come from soils.
    Now, water bodies are recognized as being impaired when 
they are not meeting the Clean Water Act goals, which means 
that they are not fishable, they are not safe for swimming, or 
they are not--they don't provide safe drinking water. And we 
have already talked this morning about some of the more 
significant consequences related to the situation in Toledo 
this summer, when they were--when they had to turn off the 
taps. But those types of toxic bloom and algae blooms are 
happening all over the nation, from New York State, to 
Wisconsin, to Oregon, down to Texas, Kansas, and Oklahoma.
    And those--but the good news about those types of water 
quality problems is we do know how to solve these water quality 
problems, and we can do so through voluntarily conservation 
programs, such as those that are provided for in the farm bill. 
And we know that through our partnership with the U.S. EPA that 
in over 500 streams all across this nation we have solved those 
types of water quality impairments through these types of 
voluntary programs.
    And I am very happy to report that in Oklahoma, in fact, we 
are one of the most successful states in the nation at 
demonstrating this type of success. There is only one state in 
the nation, in fact, that has more success than Oklahoma does 
at showing how these voluntary conservation programs that bring 
a partnership of local landowners, conservation districts, 
USDA, NRCS, and FSA, and the State Conservation Agency together 
to implement these conservation practices and solve water 
quality problems.
    One of the reasons that we have been so successful in 
Oklahoma is because we have also made EPA a part of that 
partnership. And I recognize that that makes a lot of people 
very nervous, but what we are doing with EPA is we are 
utilizing their funds from the Section 319 Clean Water Act 
program to provide technical support to support water quality 
monitoring. We are using their technical support to design that 
water quality monitoring, and we are using that data to prove 
to EPA and others that these conservation programs not only 
assist farmers in maintaining their operations, but they also 
solve water quality problems without additional regulation.
    So, with that, I would be happy to answer any questions.
    [The prepared statement of Ms. Phillips follows:]

    Prepared Statement of Shanon Phillips, Director, Water Quality 
     Division, Oklahoma Conservation Commission, Oklahoma City, OK
    Thank you for the opportunity to testify today about the 
relationship between soil health and water quality. I'm certain you're 
aware of the Natural Resources Conservation Service's (NRCS) campaign 
to raise awareness about the importance of soil health and to provide 
private landowners the knowledge, skills and tools to protect this 
resource. The impetus behind this campaign lies with the increasing 
demands on our soil resources and the agricultural community to cost-
effectively feed the world. We can thank progressive farmers and 
agricultural experts all around the globe who have developed methods, 
knowledge, and skill sets to help address this problem and we can thank 
the NRCS for bringing these tools to the U.S. agricultural community.
    The importance of protecting our national soil resources, which 
were built over geologic time and heavily impacted through settlement 
and development of our continent, is relatively obvious as it relates 
to the promotion of a strong agricultural industry, which, in turn, is 
critical for a healthy national economy. Scientists estimate that as 
much as 60% of carbon has been lost from agricultural soils since the 
1800s. This loss in organic matter affects a soil's capacity to absorb 
and hold nutrients and water, which are critical for production of 
crops and livestock forage. However, protection of our soil resources 
is also mandatory for protection of the nation's water resources.
    Erosion of soil particles, washing of compounds from the soil, and 
changes in soil structure which affect water infiltration are some of 
the most significant sources of water quality problems in the U.S. 
According to the U.S. Environmental Protection Agency, approximately 
777,759 or 67 percent of impaired miles of U.S. streams and rivers and 
9,794,360 or 40 percent of impairments to acres of lakes, reservoirs 
and ponds are caused by pollutants related to soil erosion or leaching 
of pollutants from soils such as excess nutrients, sedimentation, 
turbidity (suspended particles), pathogens, and pesticides.
    In August of this year, the City of Toledo, Ohio was in the news 
related to toxins from bluegreen algae blooms which made the city water 
supply from Lake Erie unusable. Bluegreen algae blooms, which sometimes 
produce deadly toxins, happen all over the U.S., from New York to 
Oregon and from Wisconsin to Texas. A July fourth holiday bloom in 2011 
in Grand Lake, Oklahoma dramatically impacted the local community and 
made the news for sickening one of our Senators. At least 38 
waterbodies in New York had suspected or confirmed bluegreen algae 
blooms this summer, and toxin production above safe levels was 
confirmed in at least seven of those systems.
    Algae blooms occur and persist when a waterbody receives more 
nutrients than it can naturally assimilate. These excessive nutrients 
are often related to soil erosion and the washing of pollutants from 
land surfaces. Agriculture, although certainly not the only source, is 
one of the most significant sources of nutrients in the U.S.
    The good news is that we know and have demonstrated how to reduce 
these nutrient and sediment-related impacts from agriculture. These 
successes have been demonstrated all over the nation and many of them 
are chronicled on the EPA Nonpoint Source Success Story Website at: 
http://water.epa.gov/polwaste/nps/success319/. This website highlights 
at least 508 waterbodies across the nation where water pollution 
problems have been solved. Most of these programs relied on voluntary 
conservation programs to help states and local partners clean up 
waterbodies affected by pollution which resulted from soil erosion or 
the washing of pollutants from the soil.
    I'm especially proud of the Oklahoma record of demonstrating 
success at addressing these water quality problems. Oklahoma is a 
national leader at building partnerships among private landowners, 
conservation districts, NRCS, the state conservation agency (Oklahoma 
Conservation Commission), and the EPA to solve nonpoint-driven water 
quality problems.
    Nonpoint source pollution results when rainfall or snowmelt washes 
pollutants off or out of the land and into streams. It is much more 
difficult to measure or control than point source pollution, which is 
generally thought of as pollution from a defined source, such as a pipe 
at a waste-water treatment plant. In states like Oklahoma where the 
majority of land is privately held and used for agricultural 
production, conservation programs to protect and reduce the impacts 
from agriculture have been very successful. In fact, only one other 
state in the nation has more success at addressing water quality 
programs through voluntary, nonpoint source programs. The EPA Nonpoint 
Source Success Story webpage currently lists 39 different Oklahoma 
watersheds where voluntary, agriculturally-based conservation programs 
have solved water quality problems and another six are pending in the 
coming months.
    These successes have been possible through the partnership formed 
as a response to solve the economic and natural resource devastation 
associated with the Dust Bowl. This partnership among the local 
landowners, local conservation districts, NRCS, and the state 
conservation agency has a long history of effectively working to 
address soil erosion. However, by including EPA in this partnership, 
we're able to definitively document that this partnership is also 
successful at addressing water quality impacts that are, at least in 
part, associated with agricultural production.
    States are provided funding through the EPA Clean Water Act Section 
319 Program which can be used to monitor waters for nonpoint source 
pollution-related impacts and to document water quality improvements 
from conservation programs. These funds can also be used to support 
boots on the ground personnel who can help the ever-shrinking NRCS 
staff work with landowners to implement conservation practices. 
Finally, the 319 funds can be used to supplement cost-share dollars 
available to landowners to help them install and maintain these 
effective conservation practices.
    Without the EPA partnership, there would not be a Nonpoint Source 
Program in Oklahoma, nor would there be any documented Nonpoint Source 
Success Stories. We would not be able to prove that voluntary programs 
can successfully address water quality problems on our agricultural 
lands because our limited state and Federal funds from other programs 
are focused on other purposes. Finally, the EPA oversight and technical 
support for the 319 program is both beneficial for the overall program 
and critical toward legitimizing program results.
    Thank you for your attention today and for your support for 
voluntary-based conservation programs such as those provided for in the 
farm bill. Meaningful, measurable progress towards protecting our 
nation's economic and natural resources health is possible due to this 
support. Please also recognize EPA as a critical, beneficial partner in 
this effort as well. I am pleased to answer any questions that you 
might have.
                        PowerPoint Presentation
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




    The Chairman. Thank you, Ms. Phillips, for your testimony.
    Mr. Harbach, once again, welcome to Washington, and go 
ahead and proceed with your testimony for 5 minutes.

   STATEMENT OF JAMES HARBACH, FARM MANAGER, SCHRACK FARMS, 
                          LOGANTON, PA

    Mr. Harbach. Thank you. Good afternoon, Chairman Lucas, 
Chairman Thompson, and Members of the Committee. I would like 
to thank everyone here today for the honor of sharing some of 
my life experiences, and especially Congressman G.T. for his 
confidence in me. I am very fortunate to have been part of 
agriculture for more than 40 years. On our operation, I have 
witnessed the transition from conventionally plowed ground to 
no-till. Some of our fields have been--not been plowed for 40 
years. We have seen firsthand the transformation of our soils, 
and the positive results when you farm in nature's image.
    In the last decade, with the addition of cover crops, and 
the belief that plants feed the soil, instead of soil feeding 
the plants, we have seen incredible results. Some examples 
include organic matter increases of one percent in 3 years, and 
steady state infiltration rates that average 4\1/2\" per hour.
    I have no fancy degrees, no financial incentives to be here 
today, and I don't enjoy public speaking, but I have a passion 
for our soils, and the land around the world. I am not an 
organic farmer, although we no longer use insecticide or 
fungicides, and only a fraction of the herbicides and 
fertilizers that we once applied. I used to be part of the 
group of traditional thinking farmers, but by attending 
national conferences, field days, and visiting open-minded 
farmers around the country, I now have an understanding of the 
important symbiotic relationships that are achieved when you 
farm in nature's image. Our farm is part of a like-minded 
nationwide soil health community that believes that soil health 
holds the answers to all of our problems.
    Agriculture today is farming a degraded resource, and has 
accepted this as normal. Despite our best efforts, our soil has 
lost the ability to effectively absorb rainwater, are void of 
biological life, and are depleted of nutrients. Our soils are 
so degraded that we must rely on industrial inputs to keep our 
farmlands productive.
    We now have a broken water cycle as a result of a broken 
carbon cycle. The loss of soil organic matter has contributed 
to carbon dioxide levels in the atmosphere because we have 
robbed the soils of its carbon. Soil organic matter has many, 
many functions, water infiltration, water holding capacity, 
groundwater recharge, and its ability to cycle and store 
nitrogen, along with other nutrients.
    On this slide, our soils have infiltration rates of over 
4\1/2\" per hour. And I would like you to notice this slide 
here, notice the rapid infiltration into soil, instead of 
creating--erosion, this field--above the road this field has 
drains--in the shop area, so the water is a little bit muddy 
coming off of a shield area. There is 18" pipe there bailing 
water out into this field, and it dissipates within 100 yards. 
And this is some of the things that we have been seeing. On our 
farms we no longer have water leaving our fields. Even with 4"-
4\1/2\" of rain events, we don't see any erosion.
    Conservation programs have historically reacted to resource 
concerns, instead of being proactive to address the source of 
the problem. We need to start promoting proactive conservation, 
instead of reactive conservation. NRCS has embraced soil health 
as one of their core programs. It is a good start, but what we 
need is a mammoth soil health education program to teach 
farmers, Federal and state agencies, regulators, universities, 
children, and the general public. Farmers need to understand 
how the soil functions before they will value it as a resource, 
but government programs need to motivate farms to adopt soil 
health principles. Many do the opposite. They enable poor 
stewardship.
    As we look to the future direction of government crop 
insurance programs that guarantee price and yield, we need to 
have a premium structure that promotes soil building 
techniques, and, conversely, provides a disincentive for soil 
degrading practices. Taxpayers should not be on the hook for 
supporting production agriculture that exports more topsoil 
nutrients and soil carbon than actual crop products.
    The benefits of healthy soil need to be acknowledged in the 
regulatory process. We need regulatory agencies to recognize 
that well managed farms with healthy soils are the key to 
reducing agricultural problems.
    In this slide, you can see the--a distinct line there where 
manure was applied. The following day we had a 3" rain event. 
You can see where the--none of the nutrients moved along that 
line, which tells us that, in order to keep the nutrients on 
the land, we need to keep the water on the land. This field 
also has excellent water infiltration capacity.
    Thank you for this opportunity. I will be looking forward 
to questions.
    [The prepared statement of Mr. Harbach follows:]

   Prepared Statement of James Harbach, Farm Manager, Schrack Farms, 
                              Loganton, PA
    I would like to thank everyone here today for the honor of sharing 
some of my life experiences and especially Congressman G.T. for his 
confidence in me. I am very fortunate to have been part of agriculture 
for more than 40 years. On our operation, I have witnessed the 
transition from conventionally plowed ground to no-till. Some of our 
fields have not been plowed in 40 years. We have seen firsthand the 
transformation of our soils and the positive results when you farm in 
nature's image. In the last decade, with the addition of cover crops 
and the belief that plants feed the soil instead of the soil feeding 
the plants, we have seen incredible results. Some examples include, 
organic matter increases of one percent in 3 years and infiltration 
rates that average 4\1/2\" an hour.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    I have no fancy degrees, no financial incentives to be here today, 
and I don't enjoy public speaking, but I have a passion for our soils 
and the land around the world. I am not an organic farmer, although we 
no longer use insecticides and fungicides and only a fraction of the 
herbicides and fertilizer that we once applied. I used to be part of 
the group of traditional thinking farmers, but by attending national 
conferences, field days, and visiting open minded farmers around the 
country, I now have an understanding of the important symbiotic 
relationships that are achieved when you farm in nature's image. Our 
farm is part of a like-minded nationwide soil health community which 
believes that soil health holds the answer to so many problems.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Agriculture today is farming a degraded resource and has accepted 
this as normal. Despite our best efforts, our soils have lost the 
ability to effectively absorb rainwater, are void of biological life, 
and are depleted of nutrients. Our soils are so degraded that we must 
rely on industrial inputs to keep our farmlands productive.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    We now have a broken water cycle as a result of a broken carbon 
cycle. The loss of soil organic matter has contributed to carbon 
dioxide levels in the atmosphere because we have robbed the soils of 
its carbon. Soil organic matter has many ,many functions: water 
infiltration, water holding capacity, ground water recharge, and its 
ability to cycle and store nitrogen along with other nutrients.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Conservation programs have historically reacted to the resource 
concerns, instead of being proactive to address the source of the 
problem. We need to start promoting proactive conservation instead of 
reactive conservation. NRCS has embraced soil health as one of their 
core programs. It is a good start but what we need is a mammoth soil 
health education campaign to teach farmers, Federal and state agencies, 
regulators, universities, children and the general public. Farmers need 
to understand how the soil functions before they will value it as a 
resource. Our government programs need to motivate farmers to adopt 
soil health principals. Many do the opposite, they enable poor 
stewardship. As we look to the future direction of government crop 
insurance programs that guarantee price and yield, we need to have a 
premium structure that promotes soil building techniques and conversely 
provides a disincentive for soil degrading practices. Tax payers should 
not be on the hook for supporting production agriculture that exports 
more topsoil, nutrients, and soil carbon than actual crop products.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The benefits of healthy soils need to be acknowledged in the 
regulatory process. We need regulatory agencies to recognize that well 
managed farms with healthy soils are the key to reducing agricultural 
pollution.
Food for Thought
    More independent, government funded studies need to be conducted on 
the effects of fertilizer, herbicides, GMO's and pesticides on the soil 
community and human health. We cannot rely on industry to fund these 
studies and produce unbiased results.
    Each state needs to have long term, no-till farms that exhibit 
improvements in soil health. These farms need to be central in soil 
health research and education programs. Soil health farms need to 
monitor improvements in profitability, water infiltration and 
retention, soil organic matter increases and soil generation.
    Can agriculture sequester enough soil carbon to make a measureable 
difference in atmospheric CO<INF>2</INF> concentrations? In the book 
Cows Save the Planet and Other Improbably Ways of Restoring Soil to 
Heal the Earth, Dr. Christine Jones states that every 1 tonne increase 
in soil organic carbon represents 3.67 tonnes of CO<INF>2</INF> 
sequestered from the atmosphere.
    Can healthy soils significantly reduce rain water runoff?
    Do healthy soils leak nutrients or does this only occur in poorly 
structured and poorly managed soils?
    Changing weather patterns are linked to soil management. Bare, 
exposed, dry soils put more heat into air and change flow patterns 
above the fields. Bare soils do not cycle the water, lowering the 
ability for the plants to contribute to local moisture.
    New soil testing technologies like the Haney Soil Health Tool and 
Solvita CO<INF>2</INF> Burst that measure biological life and nutrient 
availability need to be promoted and incorporated into crop nutrient 
recommendations.
    What will motivate farms to achieve good soil health and increase 
the soil organic matter--regulations or education and gaining a better 
understanding?
    If you promote soil health principles, be prepared for a huge push 
back from the agriculture industries that sell products to farmers. 
Once a farm restores healthy soils, few of these products are needed 
and it will reduce industry sales.
    Farmers that contract with NRCS and are given incentive payments 
for installing practices (EQIP, CREP, CRP, WRP) should be required to 
attend soil health trainings and education programs.
    We need to develop Soil Health Management Plans that take into 
account the soil infiltration rates, soil organic matter, and soil 
enhancing practices on the farm.

    The Chairman. Thank you, Mr. Harbach, very much. Your 
testimony is appreciated.
    Ms. Sackett, welcome, and whenever you are ready, go ahead 
and proceed with your 5 minutes of testimony.

       STATEMENT OF JILL L. SACKETT, EXTENSION EDUCATOR,
         AGRICULTURE PRODUCTION SYSTEMS, UNIVERSITY OF
        MINNESOTA EXTENSION REGIONAL OFFICE, MANKATO, MN

    Ms. Sackett. I would like to start by thanking the 
Chairman, and all Committee Members, for inviting me here today 
to testify, and to be able to share a Minnesota cover crop 
story with each of you.
    I started my professional career with cover crops basically 
the minute I started my professional career with Extension. I 
did my best to hit the ground running, and, thankfully enough, 
I had some really good resources out there on a national level, 
like SARE, on a regional level, like the Midwest Cover Crop 
Council, and then probably about 20 years off and on of cover 
crop research from the state, some great soil and water 
conservation districts, and some wonderful farmers. At that 
time, adoption rates of cover crops were very low. But we all 
forged ahead, and we were hosting education events. We were 
doing demonstration plots, and we were working with some 
amazing farmers that had innovative ideas.
    We quickly figured out that there are two main focuses for 
why Minnesota farmers are interested in cover crops, the first 
of which is soil health, which is why we are here today. Now, 
when you ask a farmer, why are you interested in trying cover 
crops, the phrase soil health may not actually be what comes 
out of his or her mouth, but what they do describe definitely 
makes up quality, healthy, productive soils. They share with us 
that they would like to see a decrease in soil erosion, an 
increase in soil organic matter, an increase in natural 
nutrient cycling. They want to see more water infiltration. 
During drought, they want to be able to have higher water 
holding capacity in that soil, all of which are part of what 
makes a soil healthy.
    The second point, and not surprising for the Land of 10,000 
Lakes, is water quality. What we noticed in Minnesota the last 
few years, unfortunately, is that we tend to have far too much 
water in the spring, and far too little water in the summer and 
fall. Cover crops are one of the few practices that actually 
allow us to deal with both of those issues.
    The use of cover crops allows us to take up excess water, 
to take up excess nutrients, and the roots help hold our soil 
in place, all of those things we want in our fields, where we 
need them most. On the flipside, when it comes to drought, a 
living plant can actually shade the soil, a dead cover crop can 
mulch the soil, both of which help decrease soil evaporation.
    This brings us to an excellent story that shows the 
interrelationship of cover crops, soil health, and water 
quality. In 2013 it wouldn't stop snowing and raining, and a 
lot of our farmers in southeast Minnesota weren't even able to 
plant their cash crops. Some of them decided to plant cover 
crops, many for the first time ever, in order to keep their 
soil in place, and to keep any nutrient that they had put on 
that soil in that field. The farmer in question here decided to 
use oilseed radish, and in September he called and said, I 
don't know what to do. It is really dry, and yet these plants 
are growing robustly. The roots are 3" in diameter, the leaves 
are bushy and about 2\1/2\ tall. What do I do? My neighbors 
are telling me that I need to just plow it under and get rid of 
it. My NRCS person is telling me, no, leave it be, you need to 
protect that soil.
    He had gotten my phone number from his soil and water 
conservation district, and he gave me a call because he knew I 
had had some experience with oil seed radish. And, in my 
experience, the chemical makeup of this particular plant allows 
it to decompose quickly in the spring, so I encouraged him to 
not listen to his neighbors, and listen to his NRCS agent 
instead, and leave it be. And that is where we left our 
conversation. This June I was pleasantly surprised to find an 
e-mail from him, where he told me that the oil seed radish had 
basically dissolved by planting time, and that the soil 
conditions were some of the best he had ever seen in his 41 
years of planting. But my favorite line from the e-mail was, 
``We showed them.''
    I would like to end today with just a few thoughts. The 
efforts of a few have become the efforts of many in the last 
few years. NRCS, with the EQIP program, the ag media, soil and 
water conservation districts, extension, nonprofits, we are all 
working together, and we are doing our best to give a unified 
message out there about cover crops and soil health. We know 
this is only a small part of the conservation puzzle, but we 
also know that, for high quality soils, for good quality water, 
cover crops can be one of the ways we can reach those two 
goals. Thank you.
    [The prepared statement of Ms. Sackett follows:]

Prepared Statement of Jill L. Sackett, Extension Educator, Agriculture 
Production Systems, University of Minnesota Extension Regional Office, 
                              Mankato, MN
A Minnesota Cover Crop Story
  Ms. Jill L. Sackett
  Extension Educator, Agriculture Production Systems--University of 
    Minnesota Extension
  State Co-coordinator, Minnesota--USDA Sustainable Agriculture 
    Research and Education

    I began my career with University of Minnesota Extension thanks, in 
part, to a USDA Sustainable Agriculture Research and Education grant 
that focused on cover crop demonstration and education. Cover crop use 
at that time was very low, but research and farmer experiences from 
around the Midwest were making a valid argument for why farmers should 
be using them. I had some personal experience with cover crops due to 
my location in south central Minnesota; numerous vegetable canning 
facilities are located there and some farmers choose to plant cover 
crops after these early harvested cash crops. Even more importantly, 
however, I had the expertise of the Midwest Cover Crop Council; local 
research from University of Minnesota, Minnesota Department of 
Agriculture, and USDA Agricultural Research Service; and a few 
experienced Soil and Water Conservation District personnel and farmers 
to guide me in my efforts. Some of these resources already had 15 or 
more years of cover crop experience. In the beginning there was some 
polite skepticism, some eye-rolling and, in some cases, actual sleeping 
in the back row. But, I can honestly say there was also genuine 
interest in the message I was sharing.
    Minnesota's interest in cover crops is driven by two things: soil 
health and water quality. Those of us who work with cover crops have 
learned that each situation is unique and the first question we need to 
ask an individual farmer is, ``why are you interested in using cover 
crops?'' The phrase ``soil health'' is rarely what comes out of a 
farmer's mouth, but what he or she does say definitely points towards a 
desire for healthy, quality soil. Many of these farmers will mention 
being concerned about soil erosion from wind and rain, wanting to 
increase soil organic matter percentage, or a desire to increase their 
soil nutrient levels. Cover crops can help with these, and many more, 
issues. I distinctly remember a Carver County farmer telling me that 
his soil just wasn't what it used to be. It was no longer a dark, rich 
color; it was difficult to work up; and his yields were no longer what 
he felt they should be. He had very real concerns over the health of 
his soil and it's the reason he started looking into adding cover crops 
to his farm operation.
    Minnesota is known as the ``Land of 10,000 Lakes.'' We actually 
have 11,842. And, we're home to 6,594 rivers and streams. All told, we 
have just over 13 million acres of surface water. ``Water, water, 
everywhere,'' and yet we also have had to deal with our fair share of 
drought conditions. Too often lately, there are places in Minnesota 
that deal with flooding in the spring and then drought in the summer 
and fall. Needless to say, Minnesota knows water, and we're well aware 
of how important it is to our 26 million acres of agricultural land as 
well as to our drinking needs and recreational activities. Research and 
common sense show that having growing plants on the land as long as 
possible helps to use excess water and nutrients and also helps keep 
the soil in place. During dry periods, the shading action of a green 
plant or the mulching action of a dead plant can help decrease soil 
water evaporation. With their potential to assist in water quality and 
quantity, cover crops are definitely starting to draw attention.
    One particular example comes to mind. During the spring of 2013, 
the snow and rain were so heavy and constant that much of southeastern 
Minnesota was unable to plant their cash crops. Some farmers made the 
decision to plant a cover crop for the first time ever so that their 
fields wouldn't be bare. One particular farmer had come to me that 
September, after having dealt with an incredibly wet spring and a 
summer drought that had hit quite hard, concerned over how to manage 
his cover crop of oil seed radish. The radishes were growing robustly 
and he was concerned about how they would affect soil moisture levels 
and spring planting. His neighbors were encouraging him to till them 
under. His local NRCS person was encouraging him to leave them. I 
shared my experiences with oil seed radish and encouraged him to leave 
the radishes and forego any fall tillage. In most years, the radish 
would easily winterkill with the advent of Minnesota's cold winter 
temperatures and the spring thaw would trigger a quick decomposition of 
the dead plants. I suggested that if he didn't feel comfortable with 
that decision, he could till some of the radishes under while leaving 
some alone. He could then compare the two management options in the 
spring. That was how we left our conversation and then this June I 
received an unexpected e-mail from him. Against the opinions of a few 
of his neighbors, he decided to leave those radishes alone last fall. 
He said that the dead radishes ``dissolved by planting time.'' He went 
on to share that he was surprised to find that he only needed one light 
pass with a field cultivator before planting his 2014 cash crop and 
that the field's soil tilth was ``about as good as I've seen in 41 
years of planting.'' My favorite quote of the message, however, was 
``we showed `em.''
    Cover crop adoption in Minnesota is still low, but the last 2 years 
have seen a marked increase in interest. The original groundbreakers 
have continued their work with cover crops, but others have also joined 
the efforts. The number of groups working with cover crop research and 
education has drastically increased and efforts are being made to work 
together as much as possible to ensure a uniform message. More 
workshops and field days than ever before are being held and the number 
of interested farmers attending these events is also increasing. The 
USDA Natural Resources Conservation Service has increased cover crop 
funding via their Environmental Quality Incentives Program. The 
agriculture news media is inundating print and Internet news sources 
with cover crop stories. The efforts of a few have now become the 
efforts of many. Continued effort, however, depends on funding. To 
increase interest in cover crops, more education is needed. To better 
answer farmers' questions, more demonstration and research projects are 
needed.
    Cover crops are only a piece of the puzzle, however. We also need 
to see an increase in conservation tillage practices like strip till or 
no-till; additional crops in our rotation instead of only one or two; 
and an increased use of best management practices. Minnesota wants 
soils that are healthy and productive and water resources that are 
managed for high quality and appropriate quantity. Cover crops can help 
reach these goals.
                        PowerPoint Presentation
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Ms. Sackett, thank you very much for your 
testimony. We will now proceed with questioning, and once again 
I will recognize the Chairman of the full Agriculture 
Committee, Mr. Lucas, for 5 minutes.
    Mr. Lucas. Chairman, I appreciate your indulgence. I would 
ask this question of the panel. In the challenges you face out 
there, what are the greatest challenges? Is it lack of 
cooperation between entities back home? Is it persuading the 
very traditional farmers to try something new? Just what are 
your chief challenges in moving your message forward? And 
whoever wants to go, whoever wants--I have 4\1/2\ minutes. I am 
listening.
    Mr. Harbach. I will take that one. We are very active in 
Pennsylvania with the PA No-Till Alliance, and we spend a lot 
of our time--given a lot of our time to education, and 
seminars, and field days. And the biggest problem we have is 
just getting people to understand. There is a lack of 
understanding. I live in a valley with a lot of Amish 
community, and they are not ones to come out to this kind of 
stuff, so to penetrate them is difficult. But, basically, it is 
just the lack of understanding from the farmers' perspective.
    It took me several years, and I am probably a slow learner, 
but it took me several years to get where I am today, and it is 
really hard to expect a farmer to get there overnight. It is 
going to take a long time to get that level of understanding.
    Mr. Lucas. I will admit to you I still remember my freshman 
Agronomy class at Oklahoma State, this is a third of a century 
ago, and going home, and having a long discussion with my 
maternal grandfather, who I farmed with, about just what was 
going on in that soil. I still remember that discussion, so I 
appreciate what you are saying.
    Mr. Larson. Chairman Lucas, one of the things that we have 
to be cognizant of is that, when we are talking about 
agricultural production, we are talking about a business, and 
so this is a business decision. And with that, we can't just go 
off of anecdotal information. We need to have good, sound 
research. We need to have case studies. We need to have the 
ability to demonstrate not just from the perspective of many 
that have done it, but from the perspective of how it fits into 
that business decision that is going to impact, potentially, 
their economic viability.
    Because the value of the practices we are talking about can 
be demonstrated to be a sound economic decision. We just need 
to come up with a more consistent way to partner together. And 
I am very proud of the work that conservation districts do to 
be that collaboration point around the country to give that 
information to folks that has the science behind it, that has 
the research behind it. And that is a part of every aspect of 
what we can do in a partnership. I am very proud to work with 
SARE, and with Rob Myers, on the national work group for cover 
crop and soil health.
    And it is conservation districts, it is extension, it is 
soil societies, it is agronomists. It is the entire spectrum of 
ag retailers and others working together to come up with this 
information that we can share on a consistent level, and in a 
consistent way, that gives confidence, and that producers can 
put trust in. And if we can get there, and we are getting 
there, then we are really going to see improvement.
    Mr. Lucas. Ms. Phillips, do you think that part of the 
reason we have such a coordinated effort in Oklahoma, a 
willingness in both public and private to work on these issues, 
is still a legacy of the miserable Dust Bowl, and what our 
predecessors went through, and the suffering that they 
encountered?
    Ms. Phillips. Yes, I do agree that the Dust Bowl showed us 
how we could come together and work cooperatively on a problem. 
I mean, we have been working that same way, and applying those 
same principles, ever since. It is something that we can't 
forget.
    Mr. Lucas. In my hometown, we had 14,000 people on the 
Census roll in 1930, after the Dust Bowl of the Depression, of 
the 1930s, the droughts of the 1950s all left, we are not quite 
back to 4,000 people yet, so the quality of soil will impact 
the ability of your citizens, your fellow neighbors, to be able 
to create a livelihood. The ulcerations you can still see if 
you fly over much of my part of western Oklahoma, in spite of 
all of the decades of efforts, so--anyway, I thank you all for 
being here. I appreciate your observations, and it is good that 
we do learn from our past, and move forward in a more positive 
fashion. With that, Mr. Chairman, I yield back.
    The Chairman. I thank the Chairman for yielding back. Now 
recognize the gentleman from Ohio for 5 minutes.
    Mr. Gibbs. Thank you, Mr. Chairman. First I have to start 
and ask Mr. Larson a question. I think you might know one of my 
constituents. He was President of your organization a few years 
ago, Gary Mass?
    Mr. Larson. Absolutely.
    Mr. Gibbs. Now you know why we have such good conservation 
practices in my area, right? Hey, I wanted to ask--well, first 
I wanted to say to Mr. Harbach, in your slide, you said you had 
4.7" of rainfall in an hour, and you were able to prevent 
runoff in the field. Could you just expound on that a little 
bit?
    Mr. Harbach. We have done some extensive water infiltration 
tests, and we have the ability--that is our average water 
infiltration capability. That is a steady state, until we can 
absorb that water. But we have had rainfall events that have 
been over 3" and 4" in an hour, and not had issues--not having 
water leaving the fields. And that photo is one of the--is a 
good way to explain what is happening.
    We have not seen that up and until the last couple years. 
Even though we have been no-tilling for 40 years, it wasn't 
until we started cover cropping that we saw those real 
advantages. And Chief Weller had mentioned that it is a systems 
approach, and----
    Mr. Gibbs. Yes.
    Mr. Larson.--we need to understand that it takes all of 
those to make it work.
    Mr. Gibbs. What we are going to find out--in my questions 
to the Chief--we have the algae bloom problem, especially in 
Lake Erie, it is from these big event--rainfall events. You 
know, it is the sewage treatment plants overflowing. I think it 
is probably the agricultural--there are preliminary testing 
results. I think we are starting to see that. I think that is 
going to be a finding, so this is really key, Mr. Chairman, to 
address that. When I heard you say that, I thought that is 
pretty remarkable, and you have something going good there, and 
we can--we need to learn more about that.
    I wanted to ask Ms. Phillips particularly, the proposed 
waters of the United States rule that has come up with the U.S. 
EPA and the Army Corps, how does that--how do you see that--is 
that affecting conservation programs?
    Ms. Phillips. Well, I am probably not the best person to 
speak on that because I work entirely in a voluntary program, 
and so we don't implement any regulation.
    Mr. Gibbs. Well, the reason that I am asking you that is 
because I understand you run a voluntary program, but the 
proposed rule is--they had to do this interpretive rule, then, 
to exempt your--the programs, and I just question whether you 
have that, because everything--supposed to be general farming 
practice is supposed to be exempt.
    I guess my words of wisdom to you would be I think it will 
have an impact on conservation programs in a negative way, and 
could open the door for farmers not wanting to be more amenable 
to working with NRCS and others, and that concerns me just--
maybe----
    Ms. Phillips. I think certainly, as you have stated, that 
there are a lot of people who are very concerned about the 
proposed rule, and they are concerned about the way that it was 
formulated, and that states weren't brought into the process. 
And so it would seem that many people--and I would agree with 
this recommendation, that EPA needs to step back and pull 
partners back into the process, and take a new--take--start 
over.
    I think that they should have--we have learned--they should 
have learned from many of their other approaches toward rules 
of this type is that you are most successful when you bring 
your partners to the table from the beginning, and work 
together.
    Mr. Gibbs. Yes. And, of course, the House, I guess it was 
last week, passed a bill that said time out to--and go back to 
the states. And in my subcommittee hearing here a few weeks 
ago, as far as we could tell, not one state EPA or counterpart 
supports the proposals--excuse me, the proposed rule, so that 
is a red flag to me.
    Mr. Larson, on the--working with farmers, and doing 
conservation practices, how do you--do you see different things 
going on in different areas of the country? You know, different 
challenges, but different--maybe different practices might work 
in Oklahoma, might not work in Ohio? How do you address that? 
Are there any problems, challenges, in Washington that make it 
more difficult?
    Mr. Larson. Well, the part that I look at is that the true 
value of conservation districts is that they are part of that 
local community. And of those boards, those are volunteer 
members. They are elected or appointed members that serve on 
those conservation district boards, and they have perspective 
of their local community. So they help to come up with a suite 
of practices that is based on working with our Federal and 
state partners of what works there.
    And the Burleigh County example is a very good one, because 
they have been, for 20 years, highlighting, and demonstrating, 
and refining the guidance that they give to the rest of the 
community. And that is critically important, because it is a 
site specific issue. The 4.7 infiltration rate is great, but we 
know that there are other soils not very far away that would 
never reach that potential unless under very careful 
management, utilizing soil health practices that potentially 
aren't the same, or implemented. So that is one of the pieces 
that--at that local level.
    Mr. Gibbs. Right. Yes. Just a comment--quick comment, Mr. 
Chairman. I agree with you 150 percent, because when I was in 
my local conservation soil and water board, they instituted a 
nutrient training program, in conjunction with Ohio State 
University, and the Ohio EPA, and the NRCS, and it is working. 
We are actually decreasing the TMDL loads in the watershed, and 
we are able to keep--in--the jobs in place, and actually grow 
that business, and actually decrease the load. So you are 
absolutely right. Like I said earlier, this structure we have 
is the right structure to work for, and we need to make sure we 
protect that. So I yield back, thank you.
    The Chairman. I thank the gentleman. I will take the 
liberty of my 5 minutes now.
    Ms. Sackett, as the product of another great land-grant 
university, who is currently 3-0 in the Big Ten, I just want to 
say, the--I wanted to check with you--obviously you have a 
very--a passion for this. You have done your preparation, you 
are an asset and a resource. You are part of the boots on the 
ground with our NRCS partners. You know, the importance of 
ensuring that our ag extension staff are trained in the basics 
of healthy soils, any idea--can you give us some idea, how are 
we doing with that task, with our ag extension? What is the 
bigger picture with our ag extension staff across the nation?
    Ms. Sackett. Well, I can only speak for Minnesota, because 
that is obviously what I know best, but, in Minnesota, we have 
local extension educators, regional extension educators, and 
then our state specialists, and we are encouraged to focus on 
certain areas. So, for instance, my focus is conservation 
sustainable ag. A colleague of mine, it is soils. So you can 
kind of see how, even though we are all focusing on these 
different bits and pieces, we most definitely see where we are 
coming together.
    And just because one of us is focused on cover crops, for 
instance, doesn't mean that we are not sharing with each other. 
We regularly have staff development meetings. Each of us have 
funds to attend professional development. I go to regional 
cover crop and soil health events. Some of my other colleagues 
are also attending those things.
    We are doing our best to educate ourselves about these 
efforts on a national, regional, and state level, and then we 
are doing our best to talk to each other. And you can't leave 
out the farmers, and the other partners in the whole puzzle. It 
definitely comes down to working together and having that 
communication, so that we are all on the same page.
    The Chairman. All right. Thank you very much.
    Mr. Larson, how can conservation districts better leverage 
Federal programs to get the maximum success of dollars to make 
the biggest impact? For example, using both the 319 funds from 
the EPA and the NRCS funding.
    Mr. Larson. Well, I think that Shanon has an excellent 
example from Oklahoma, in the way that they have taken the 
different Federal programs, and then matched it up with state 
programs to get right to the heart of the matter. And having, 
again, the conservation districts engaged that have that local 
knowledge, and ability to identify issues.
    And with these conservation practices, part of it is, and I 
think that Jim would agree, that it is potentially an increase 
in management responsibility by the producer, and so one of the 
things is to have willing participants. And so working with 
those that are willing, that want to do this, it is going to 
help to then show the value of soil health. The voluntary 
incentive-based approach is going to work when you have willing 
participants, that--then we are going to see that escalation of 
stewardship.
    The challenging part in the scenario, and one that I am 
very--and I thank the Chairman and the Members of the Committee 
for the work on the 2014 Farm Bill, is that the conservation 
title was escalated, and it was given more importance. When you 
look at it in relationship to title I, it is the first time in 
history where we have more funding in title II than we had in 
title I. And we certainly see that as a movement in the right 
way for not only those wishing to do conservation, and the 
incentive-based approach, but also for the justification and 
defense of what we are trying to do with this program, to the 
value of the American public.
    Here is a program that is providing clean water, that is 
providing clean air, that is providing wildlife habitat, that 
is providing those natural resources that we need. And so 
whatever we can do to help to get others within the halls to 
understand the value of that, that certainly is something that 
is a goal that we should try and achieve.
    The Chairman. Thank you. Mr. Harbach, Jim, you have been 
using this practice for some time. Did you--I mean, using these 
practices, do you deplete or do you enrich the nutrition and 
quality of your soil through the practices that you are using, 
and specifically related to some of the really basic parts of 
soil nutrition, like nitrogen?
    Mr. Harbach. Well, we have learned, just in the last year, 
is that, through healthy soils, and the organic matter levels 
that is in there, there is a system through the--root system, 
and through the photosynthesis that allows for nitrogen to be 
taken out of the atmosphere, and we have lost that ability to 
do that through tillage, and through the fact that we don't 
keep crops growing 365 days a year. That can't--without that 
crop growing, we can't support that system that gets the free 
nitrogen from the air. So that is why we are more--that is why 
we are so reliant on inorganic fertilizers.
    And when you hear people talk about--you hear the soil 
health enthusiasts that say that--well, I am using less 
fertilizer now. That is why. And I am not sure if that answered 
your question, but, no, those--the soil health only adds in 
every aspect.
    The Chairman. Yes. And you were kind enough to invite me to 
your farm not too long ago, about a month ago or so, and if I 
recall right, I believe it was--was it nitrogen that you have 
increased by one percent over time?
    Mr. Harbach. Well, that would be the soil organic matter 
levels that we have been able to increase in our soils. And the 
old school thought is that that is not possible. But what we 
have found is that--and people talk about the advantages of 
cover crops, but the cover crop, from--the advantage that we 
see is that we are able to harvest sunlight 365 days a year to 
grow that--to allow that process to happen. And it is the 
plants feeding the soils that is accomplishing those soil 
organic matter gains.
    And that is critical, and that is the systems approach 
things that we are talking about, when we are talking about 
people not being willing to do that for economical reasons. But 
once they understand how the soil functions, then they start 
asking the questions, how do I do that? Because they can't 
afford not to do that. It is the understanding that we need to 
get people to get to.
    The Chairman. You mentioned that you no longer use 
insecticides and fungicides, and only a fraction of the 
herbicides and fertilizer that you once used. What are the 
direct benefits or challenges you see with using so much less 
fertilizer and herbicides?
    Mr. Harbach. It is not really a challenge. Initially it is, 
to make that first big step, but there is so much research 
done. And I have to say, from ARS, and I know you guys support 
ARS, there are a lot of good things coming out of there, 
because that is research that is done that is not industry 
funded, and we we need to increase that.
    By not using the insecticides or as many chemicals, it is 
all that systems approach thing, that once you achieve soil 
health, you have the beneficial bugs, you have the ones that 
take out the critters that you are applying an insecticide for, 
or maybe a fungicide, the fungicide is very hard on soils, and 
we need to get people to understand that once you have achieved 
that certain level of soil health, that some of these other 
input costs can go away.
    The Chairman. All right. I want to thank all the witnesses 
for great testimony on an important topic. And, before we 
adjourn, I want to invite--the Chairman yields--I do want to 
say that this is a bipartisan issue. I know that both the 
Ranking Member of the full Committee was hoping to be able to--
he was here for a time, and didn't have, really, the window to 
offer his support in kind of an opening statement. And my 
Ranking Member on the Subcommittee, this is very important to 
him as well. They just had conflicts that occur here, 
unfortunately, and they very much appreciate all the witnesses' 
testimony today.
    I have heard healthy soils described as harvesting 
sunlight, and using the natural processes of photosynthesis, 
where, in the past, when we thought of agriculture, we thought 
it depleted the soil. Now it is very apparent that with certain 
agricultural practices, we can actually grow soil, for the 
benefit of everyone. So thank you so much for all the 
witnesses.
    Under the rules of the Committee, the record of today's 
hearing will remain open for 10 calendar days to receive 
additional materials and supplementary written responses from 
witnesses to any questions posed by a Member. This hearing of 
the Subcommittee on Conservation, Energy, and Forestry is now 
adjourned.
    [Whereupon, at 1:03 p.m., the Subcommittee was adjourned].
    [Material submitted for inclusion in the record follows:]
  Submitted Letter by Chris Jahn, President, The Fertilizer Institute
September 18, 2014

  Hon. Glenn Thompson,
  Chairman,
  Subcommittee on Conservation, Energy, and Forestry,
  House Committee on Agriculture,
  Washington, D.C.;

  Hon. Timothy J. Walz,
  Ranking Minority Member,
  Subcommittee on Conservation, Energy, and Forestry,
  House Committee on Agriculture,
  Washington, D.C.

Re: Hearing entitled: ``The benefits of promoting soil health in 
            agriculture and rural America''

    Dear Chairman Thompson and Ranking Member Walz:

    The Fertilizer Institute (TFI) is the leading voice of the 
fertilizer industry, representing the public policy, communication and 
statistical needs of producers, manufacturers, retailers and 
transporters of fertilizer. The Institute's members play a key role in 
producing and distributing vital crop nutrients, such as nitrogen, 
phosphorus and potassium, which are used to replenish soils throughout 
the United States that in turn produce healthy and abundant supplies of 
food, fiber and fuel. TFI, on behalf of its members, appreciates the 
opportunity that today's hearing presents for our industry to talk 
about the important role that fertilizer plays in improving and 
maintaining soil health.
    The World's population is predicted to reach 9.4 billion people by 
2050. Industry experts agree that increased food production will be 
achieved by intensified crop production and not by an expanded arable 
land base. As a result, commercial fertilizers have a critical role to 
play in boosting crop production to the levels necessary to meet the 
demands of this rapidly growing world population. Crop nutrients such 
as nitrogen, phosphorus, potassium, and secondary and micronutrients 
such as calcium, zinc and iron are responsible for between 40 and 60 
percent of today's total food production and will be a necessary 
component in producing nutritious food in the most environmentally 
sensitive manner possible.
Fertilizer is a Key Contributor to Soil Health
    Fertilizers play an important role in soil health. Research 
indicates that larger crops resulting from balanced crop nutrition 
significantly benefit soil organic carbon. In short, larger crops 
return a greater amount of carbon to the soil system than those limited 
by poor fertility. Halverson, et al. (1999) noted that increasing soil 
organic carbon with increasing nitrogen fertilization contributed to 
improved soil quality and productivity, as well as improved carbon 
sequestration. Additionally, Chu, et al. (2007) evaluated balanced 
versus nutrient-deficiency fertilization on soil microbial biomass, 
activity, and bacterial community structure in a long-term (16 years) 
field experiment. Long-term fertilization greatly increased soil 
microbial biomass and dehydrogenase activity. Soil organic matter 
contributes significantly to soil health. Relative to crop nutrition, 
soil organic matter enhances nutrient cycling by acting as a reservoir 
of nutrients that can be released to the soil under optimum conditions. 
For a high yielding corn production system (250 bu/acre), a soil with 
2.5 percent organic matter could provide 20 percent of the annual 
recommended nitrogen. The average estimate of available nitrogen, used 
by agronomist, is 20 pounds of available nitrogen for every 1% of 
organic matter.

  * Halvorson, A.D., C.A. Reule, and R.F. Follett. 1999. Nitrogen 
        fertilization effects on soil carbon and nitrogen in a dryland 
        cropping system. Soil Sci. Soc. Am. J. 63:912-917.

  * Chu et al. 2007. Soil microbial biomass, dehydrogenase activity, 
        bacterial community structure in response to long-term 
        fertilizer management. Soil Biol. Biochem. 39(11): 2971-2976
4R Nutrient Stewardship
    Meeting global food demand is not enough and the fertilizer 
industry today is also committed to promoting science-based, 
sustainable fertilizer best management practices that boost crop 
production while minimizing impacts to the environment. At the heart of 
that commitment is what is known as 4R nutrient stewardship, a 
framework to achieve cropping system goals, such as increased 
production, increased farmer profitability, enhanced environmental 
protection and improved sustainability.
    The 4R nutrient stewardship principles are the same globally, but 
how they are used locally varies depending on field and site specific 
characteristics such as soil, cropping system, management techniques 
and climate. The scientific principles of the 4R framework include:
    Right Source--Ensure a balanced supply of essential nutrients, 
considering both naturally available sources and the characteristics of 
specific products, in plant available forms.
    Right Rate--Assess and make decisions based on soil nutrient supply 
and plant demand.
    Right Time--Assess and make decisions based on the dynamics of crop 
uptake, soil supply, nutrient loss risks, and field operation 
logistics.
    Right Place--Address root-soil dynamics and nutrient movement, and 
manage spatial variability within the field to meet site-specific crop 
needs and limit potential losses from the field.
    It is important to stress that all four ``Rs'' must be used 
together because there is no single practice or ``silver bullet'' that 
will prevent nutrients from being lost to the environment.
    In 2011, the USDA revised their standard for managing farm 
nutrients with a goal toward employing new technologies to reduce 
runoff and improve water quality. The 4Rs are a component of the 
Natural Resources Conservation Service Conservation Practice Standard 
Code 590. For more information on 4R nutrient stewardship, I invite you 
to visit http://www.nutrientstewardship.com.
4R Research Fund: Demonstrating the Impacts of 4R Nutrient Stewardship
    In addition the 4R nutrient stewardship program, the fertilizer 
industry has established the 4R Research Fund with the goal of 
establishing sustainability indicators and environmental impact data 
for implementation of 4R nutrient stewardship across North America. It 
provides needed resource support with a focus on measuring and 
documenting the economic, social and environmental impacts of 4R 
nutrient stewardship.
    Having just completed its first year in existence, to date the fund 
has granted nearly $2.4 million in support of science-based research 
aimed at addressing cropping system productivity and concerns regarding 
nutrient losses into the environment. USDA's Agricultural Research 
Service (ARS), for example, has been awarded funds for a project in 
partnership with Heidelberg University, Ohio State University, The 
Nature Conservancy and the International Plant Nutrition Institute 
(IPNI) to evaluate the impacts of adopting practices associated with 4R 
Nutrient Stewardship, as well as the impact of the Western Lake Erie 
Basin (WLEB) 4R Certification program on crop productivity and 
profitability, water quality, and perceptions of growers, nutrient 
service providers and residents. For additional information on the 4R 
Research fund and the list of current projects, I invite you to visit 
http://www.nutrientstewardship.com/funding.
Fertilizer Use Efficiency
    Data released by the U.S. Department of Agriculture in May 2011, 
shows that between 1980 and 2010, U.S. farmers increased corn 
production 87.5 percent while using four percent fewer fertilizer 
nutrients. Although the factors that contribute to increasing food 
prices and food scarcity are complex, one thing is for sure--the use of 
fertilizer is a necessary component in the solution to further increase 
efficient and environmentally sensitive production of food for the 
world.
    TFI would like to thank the Subcommittee for the opportunity to 
submit these comments for the record. We look forward to continuing to 
work with you on this and other important agriculture issues. If you or 
your staff would like to discuss this letter or the enclosed materials, 
please contact Clark Mica via e-mail at [Redacted] or telephone at 
[Redacted].
            Sincerely,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
Chris Jahn,
President.
                              Attachment 1
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              Attachment 2
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

     Submitted Letter by Jeff M. Sands, Director of Public Policy, 
                   Agricultural Retailers Association
9/25/2014

 
 
 
Hon. Glenn Thompson,                 Hon. Timothy J. Walz,
Chairman,                            Ranking Minority Member,
Subcommittee on Conservation,        Subcommittee on Conservation,
 Energy, and Forestry, House          Energy, and Forestry, House
 Committee on Agriculture,            Committee on Agriculture,
Washington, D.C.;                    Washington, D.C.
 

    Chairman Thompson, Ranking Member Walz, and distinguished 
Subcommittee Members:

    The Agricultural Retailers Association (ARA), suppliers to 
America's farmers, would like to commend the House Agriculture 
Subcommittee on Conservation, Energy, and Forestry for holding the 
recent hearing entitled ``The Benefits of Soil Health in Agriculture 
and Rural America.'' The hearing was an appropriate demonstration of 
oversight on the recently passed Agricultural Act of 2014 and 
highlighted the importance of an agronomic concept that is rapidly 
being adopted by growers across the country.
    ARA membership is largely comprised of crop input suppliers that 
provide not only the products needed to grow a crop but also the 
trusted agronomic counseling that growers depend on to keep a 
profitable and sustainable farming operation. It would not be an 
overstatement to say that soil health is at the core of every 
transaction and interaction that takes place through an ARA member 
facility. The concepts that serve as the foundation for the soil health 
movement have been embedded within our agronomy services for some time 
and we are elated to see Congress discuss this important topic.
    An exciting area of opportunity in soil health arose as the hearing 
proceeded was partnerships. Between the recently passed farm bill and 
the amplified interest in improving soil quality, we have seen an 
incredible uptick in the amount of partnerships between the agriculture 
industry, government, and conservation-oriented groups. A testament to 
this trend is the recently formed National Working Group on Cover Crops 
and Soil Health that current ARA Chairman, Gary Farrell of Ag 
Enterprise Supply, serves on to promote those very important concepts. 
Gary also helped to create and serves as Co-Chair of the Washington 
Soil Health Working Group but while Gary is a leader, he is certainly 
not the only agricultural retailer to be interested in advancing soil 
health.
    Partnerships that bring stakeholders together and utilize core 
competencies of each group will be the key to helping the soil health 
campaign reach ultimate fruition. The membership of the Agricultural 
Retailers Association, with their depth and breadth of agronomic 
knowledge, experience, and technology, have a great deal to offer this 
cause and would hope to be a source of information to the House 
Agriculture Committee as you consider this topic further. This 
subcommittee's great work in crafting the Conservation title of the 
2014 Farm Bill has provided ARA membership with the opportunity to work 
closer with USDA and other partners to provide growers with the 
information they need to unlock their soils potential. As a result of 
the Regional Conservation Partnership Program and other provisions, we 
are proud to say that our relationships with groups such as the 
National Association of Conservation Districts, Conservation Technology 
Information Center, and USDA-NRCS are the strongest that they have ever 
been and we are eager to see the work product that results from these 
alliances.
    At a time when agricultural production is crucial to our economy 
and environmental stewardship is essential to preserving our natural 
resources, soil health is perhaps more timely a topic now than ever 
before. The Agricultural Retailers Association thanks Chairman Thompson 
and Ranking Member Walz for their dedication to this important cause 
and would encourage committee members and staff to look to ARA as an 
additional resource should you seek more information on soil health 
efforts taking place at the farm gate.
    Thank you for your consideration of our perspective. Should you 
have any questions, please contact ARA at [Redacted] or [Redacted].
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Jeff M. Sands,
Director of Public Policy,
Agricultural Retailers Association.

                                  <all>
</pre></body></html>
